<html>
<title> - DISRUPTER SERIES: SELF-DRIVING CARS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








                  DISRUPTER SERIES: SELF-DRIVING CARS

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 15, 2016

                               __________

                           Serial No. 114-174


      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                        
                        
                        
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                    
                        
                        
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

23-110                         WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                       
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
TIM MURPHY, Pennsylvania             GENE GREEN, Texas
MICHAEL C. BURGESS, Texas            DIANA DeGETTE, Colorado
MARSHA BLACKBURN, Tennessee          LOIS CAPPS, California
  Vice Chairman                      MICHAEL F. DOYLE, Pennsylvania
STEVE SCALISE, Louisiana             JANICE D. SCHAKOWSKY, Illinois
ROBERT E. LATTA, Ohio                G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            KATHY CASTOR, Florida
LEONARD LANCE, New Jersey            JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    PETER WELCH, Vermont
DAVID B. McKINLEY, West Virginia     BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia         YVETTE D. CLARKE, New York
GUS M. BILIRAKIS, Florida            DAVID LOEBSACK, Iowa
BILL JOHNSON, Missouri               KURT SCHRADER, Oregon
BILLY LONG, Missouri                 JOSEPH P. KENNEDY, III, 
RENEE L. ELLMERS, North Carolina         Massachusetts
LARRY BUCSHON, Indiana               TONY CARDENAS, California
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

           Subcommittee on Commerce, Manufacturing, and Trade

                       MICHAEL C. BURGESS, Texas
                                 Chairman
LEONARD LANCE, New Jersey            JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                        Ranking Member
MARSHA BLACKBURN, Tennessee          YVETTE D. CLARKE, New York
GREGG HARPER, Mississippi            JOSEPH P. KENNEDY, III, 
BRETT GUTHRIE, Kentucky                  Massachusetts
PETE OLSON, Texas                    TONY CARDENAS, California
MIKE POMPEO, Kansas                  BOBBY L. RUSH, Illinois
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            PETER WELCH, Vermont
SUSAN W. BROOKS, Indiana             FRANK PALLONE, Jr., New Jersey (ex 
MARKWAYNE MULLIN, Oklahoma               officio)
FRED UPTON, Michigan (ex officio)
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     1
    Prepared statement...........................................     3
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................    14
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    85
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................    86

                               Witnesses

Mark Rosekind, Ph.D., Administrator, U.S. Department of 
  Transportation, National Highway Traffic Safety Administration.     4
    Prepared statement...........................................     7
    Answers to submitted questions...............................
Mitch Bainwol, President and CEO, Alliance of Automobile 
  Manufacturers..................................................    31
    Prepared statement...........................................    33
    Answers to submitted questions...............................
Kirk Steudle, Director, Michigan Department of Transportation....    41
    Prepared statement...........................................    43
    Answers to submitted questions...............................
Laura MacCleery, Vice President of Consumer Policy and 
  Mobilization, Consumer Reports.................................    46
    Prepared statement...........................................    48
    Answers to submitted questions...............................
Ann Wilson, Senior Vice President, Motor and Equipment 
  Manufacturers Association......................................    57
    Prepared statement...........................................    59
    Answers to submitted questions...............................
Gary Shapiro, President and CEO, Consumer Technology Association.    65
    Prepared statement...........................................    67
    Answers to submitted questions...............................

                           Submitted material

Statement of Property Casualty Insurers Association of America, 
  submitted by Mr. Burgess.......................................    88
Statement of Global Automakers, submitted by Mr. Burgess.........    93
Statement of the Self-Driving Coalition for Safer Streets, 
  submitted by Mr. Burgess.......................................    98

 
                  DISRUPTER SERIES: SELF-DRIVING CARS

                              ----------                              


                       TUESDAY, NOVEMBER 15, 2016

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:30 a.m., in 
room 2122 Rayburn House Office Building, Hon. Michael Burgess 
(chairman of the subcommittee) presiding.
    Members present: Representatives Burgess, Lance, Blackburn, 
Guthrie, Kinzinger, Bilirakis, Brooks, Mullin, Schakowsky, 
Kennedy, Cardenas, and Pallone (ex officio).
    Staff present: Elena Brennan, Staff Assistant; Karen 
Christian, General Counsel; James Decker, Policy Coordinator, 
Commerce, Manufacturing, and Trade; Blair Ellis, Digital 
Coordinator/Press Secretary; Melissa Froelich, Counsel, 
Commerce, Manufacturing, and Trade; Giulia Giannangeli, 
Legislative Clerk, Commerce, Manufacturing, and Trade; A.T. 
Johnston, Senior Policy Advisor; Paul Nagle, Chief Counsel, 
Commerce, Manufacturing, and Trade; Dan Schneider, Press 
Secretary; Olivia Trusty, Professional Staff, Commerce, 
Manufacturing, and Trade; Michelle Ash, Minority Chief Counsel, 
Commerce, Manufacturing, and Trade; Jeff Carroll, Minority 
Staff Director; David Goldman, Minority Chief Counsel, 
Communications and Technology; Rick Kessler, Minority Senior 
Advisor and Staff Director, Energy and Environment; Caroline 
Paris-Behr, Minority Policy Analyst; Matt Schumacher, Minority 
Press Assistant; and Andrew Souvall, Minority Director of 
Communications, Outreach and Member Services.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Burgess. The subcommittee on Commerce, Manufacturing, 
and Trade will now come to order. The chair recognizes himself 
for 5 minutes for an opening statement.
    Good morning all, and welcome to today's Disrupter Series 
hearing on self-driving cars, a groundbreaking technological 
development that has the potential to completely transform and 
redefine the vehicle and transportation system that we know and 
understand today.
    Because this may be the last time that we have the 
privilege of having Dr. Rosekind before our subcommittee, let 
me first thank him for his service. He has always cooperated 
with this committee and we have continued to improve the 
agency, the recall process and, although it has been a big 
task, I believe improve safety. Thank you, Dr. Rosekind, for 
your service.
    Self-driving cars promise to be the most significant 
automobile-related safety development in our lifetimes. This 
hearing will kick off what I expected to be a major focus of 
this subcommittee really for years to come and the reason is 
simple. Last year, automobile-related fatalities were around 
35,000 and rose for the first time in nearly a decade. My home 
State of Texas was about ten percent of that: 3,516. The vast 
majority of those fatalities are still related to human 
behavior. Already, we have heard that fatalities are up again 
for the first half of this year. Truly self-driving cars are 
not about to be deployed in any great numbers anytime soon but 
the sooner we can safely get them to market, the sooner we can 
start saving lives. I, for one, am not among those who are 
worried that the adoption of this new technology will outpace 
safety. It will not be broadly adopted before it is ready. Our 
job is to be really smart and identify a path forward where the 
government can provide a cop on the beat for the industry and 
respond quickly where safety incidents arise. But we cannot let 
the government paralyze the very innovation that promises to 
make us safer.
    I think National Highway Traffic Safety Administration's 
recent guidance is well-meaning. We obviously worry greatly 
about its implementation. Waiting for the government to approve 
technology is never a good formula. That said, we must remain 
vigilant in areas like cybersecurity where industry must be 
held accountable if they are not taking reasonable measures.
    In addition to safety, self-driving cars promise a 
reduction in fuel emissions and energy consumption as a result 
of improved mobility and more efficient traffic flows. Self-
driving vehicles may also allow for more efficient land use 
instead of wasting resources on parking in city lots. We can 
also expect to see an increase in transport and mobility 
opportunities such as ride-hailing and rise-sharing services; 
opportunities for labor cost savings; improved transportation 
access for disabled, elderly, and underserved populations; and 
other enhancements that improve the societal and economic 
welfare of communities across the country. This is what makes 
the development and deployment of autonomous cars so exciting: 
their impact will be virtually limitless.
    As Dean Kamen reminded all of us at our last Disrupter 
Series hearing, we cannot afford to let the perfect be the 
enemy of the good. That means allowing innovators to innovate, 
allow them to develop the technology and give them the 
flexibility to test its potential. Preemptive action on the 
part of regulators before gaining a full understanding or 
appreciation of self-driving cars may lead to unintended 
consequences that limit the capabilities of this emerging 
technology and its promised life-saving, economic, and societal 
benefits.
    I want to thank our witnesses for taking the time to inform 
us about this technology and I look forward to a thoughtful and 
engaging discussion.
    [The opening statement by Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    Good morning and welcome to today's Disrupter Series 
hearing on self-driving cars--a groundbreaking technological 
development that has the potential to completely transform and 
redefine the vehicle and transportation system we know and 
understand today.
    Because this may be the last time we have Dr. Rosekind 
before us, let me first thank him for his service. He has 
always cooperated with this Committee as we have worked to 
improve the agency, the recall process, and improve safety. 
Thank you.
    Self-driving cars promise to be the most significant 
automobile related safety development in our lifetime. This 
hearing will kick off what I expect to be a major focus of this 
subcommittee in the years to come. The reason for that is 
simple. Last year, automobile related fatalities were around 
35,000 and rose for the first time in nearly a decade. In my 
home state of Texas, the number was 3,516. The vast majority of 
those fatalities are still related to human behavior. Already, 
we have heard that fatalities are up again in the first half of 
this year.
    Truly self-driving cars are not about to be deployed in any 
great numbers anytime soon. But the sooner we can safely get 
them to market--the sooner we start saving lives. I, for one, 
am not among those who are worried that adoption of this new 
technology will outpace safety. It will not be broadly adopted 
before its ready. So our job is to be really smart and identify 
a path forward where government can police industry and respond 
quickly where safety incidents arise. But we cannot let 
government paralyze the very innovation that promises to make 
us safer.
    I think NHTSA's recent guidance is well meaning. But I do 
worry greatly about its implementation. Waiting for the 
government to approve technology is never a good formula. That 
said we must remain vigilant in areas, like cybersecurity, 
where industry must be held accountable if they are not taking 
reasonable measures.
    In addition to safety, self-driving cars promise a 
reduction in fuel emissions and energy consumption as a result 
of improved mobility and more efficient traffic flows. Self-
driving vehicles may also allow for more efficient land use 
instead of wasting resources parking in city lots. We can also 
expect to see an increase in transport and mobility 
opportunities such as ride-hailing and ride-sharing services; 
opportunities for labor cost savings; improved transportation 
access for disabled, elderly, and underserved populations; and 
many other enhancements that improve the societal and economic 
welfare of communities across the country. This is what makes 
the development and deployment of autonomous cars so exciting: 
their impact will be virtually limitless.
    As Dean Kamen reminded all of us at our last Disrupter 
Series hearing: we cannot let the perfect be the enemy of the 
good. That means allowing innovators to develop the technology 
and giving them the flexibility to test its potential. 
Preemptive action on the part of regulators, before gaining a 
full understanding or appreciation of self-driving cars, may 
lead to unintended consequences that limit the capabilities of 
this emerging technology and its promised life-saving, 
economic, and societal benefits. I thank the witnesses for 
taking the time to inform us about this technology and I look 
forward to a thoughtful and engaging discussion.

    Mr. Burgess. Let me yield back my time and recognize the 
vice chairwoman of the full committee for 5 minutes for an 
opening statement.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. And Dr. Rosekind, 
I want to say thank you to you. I join the chairman in thanking 
you for your service and for taking the time to be here.
    The issue that we are looking at today and as a part of our 
Disrupter Series is something that is really important to my 
constituents in Tennessee because you have the General Motors 
Spring Hill Plant that is in my district. They are doing much 
of the green tech innovation. You also have the Nissan North 
America that is located in my district and then on the 
outskirts of our district, we have the Toyota Bodine Engine 
plant.
    Now, as I talked to the innovators and the engineers that 
are working on these next generation concepts, they repeatedly 
remind me that automobiles are now driving computers and that 
we need to recognize that and be mindful of it.
    And as we look at the Internet of things, of course it is 
well-placed but as we view this, we also view the necessity for 
safety and the technology that will make cars safer or help to 
make them safer will bring forward some of the driverless 
components, have those interface with the marketplace. Those 
are issues that are going to be important to us. Reducing 
fatalities on the road is something that we are very interested 
in. And when you hear that the self-driving or driverless-
directed components can reduce, has the potential to reduce 
fatalities by 90 percent, that is something, as a mother and a 
grandmother, that really interests me because we all want to 
have those opportunities to make vehicles safer.
    So, I think you for the time, Mr. Chairman. I thank you for 
going ahead and moving forward with this hearing and I yield 
back the balance of my time.
    Mr. Burgess. The chair thanks the gentlelady. Does anyone 
else on the Republican side seek time for an opening statement? 
Seeing none, we are going to depart from regular order. Dr. 
Rosekind, just I will ask you to go ahead with your opening 
statement. I will not interrupt you when members of the 
Democratic side arrive. They will then be recognized for 
opening statements but my intention is to allow you to deliver 
your entire remarks before we do that.
    We do want to thank all of our witnesses for being here 
today and taking the time to testify before the subcommittee. 
Today's hearing will consist of two panels. Each panel of 
witnesses will have an opportunity to give an opening 
statement, followed by a round of questions by members. Once we 
conclude with questions of the first panel, we will take a 
brief recess to set up for the second panel.
    Our first panel for today's hearing is Dr. Mark Rosekind, 
the Administrator at the National Highway Traffic Safety 
Administration. We appreciate you being here today. We will 
begin the panel with Dr. Rosekind and you are now recognized 
for 5 minutes for your opening statement.

    STATEMENT OF MARK ROSEKIND, PH.D., ADMINISTRATOR, U.S. 
 DEPARTMENT OF TRANSPORTATION, NATIONAL HIGHWAY TRAFFIC SAFETY 
                         ADMINISTRATION

    Mr. Rosekind. Chairman Burgess, Ranking Member Schakowsky, 
members of the committee, thank you for holding this meeting 
and for inviting me to testify.
    At NHTSA, our mission is to save lives on America's 
roadways, and for 50 years we have carried out that mission by 
writing and enforcing regulations to make vehicles safer, 
fighting against drunk driving, building a national consensus 
about seatbelt use, and so many other efforts that have saved 
hundreds of thousands of Americans on our roadways but we have 
far more work to do and that work can be measured by some very 
alarming numbers.
    In 2015, we lost 35,092 people on our public roads. And at 
NHTSA we know that that is not just a number. Those are mothers 
and fathers, brothers and sisters, coworkers, friends, 
colleagues. And the problem is getting worse. Last month, we 
announced that roadway fatalities in the first half of this 
year are up over ten percent.
    And it is against this backdrop that the Department of 
Transportation, under the leadership of Secretary Anthony Foxx, 
has been working so hard on our efforts to accelerate the safe 
deployment of automated vehicle technologies. Because while 
automated vehicles carry enormous potential to transform 
mobility and reshape our transportation system, it is their 
awesome potential to revolutionize roadway safety that has us 
to motivated.
    And there is one more number that helps explain why. That 
number is 94. That is the percentage of crashes that can be 
tied back to a human choice or error. That is a choice to speed 
or drive drunk, to send a text message from behind the wheel, 
or misjudge the stopping distance. That 94 percent represents 
the untold potential of automated vehicle safety technologies. 
We envision a future where advanced technologies not only help 
reduce crashes but a world with fully self-driving cars that 
hold the potential to eliminate traffic fatalities altogether.
    The Federal Automated Vehicles Policy, which the Department 
issued on September 20th, is the world's first comprehensive 
government action to guide the safe and efficient development 
and deployment of these technologies.
    And the policy covers four areas: One, vehicle performance 
guidance for automakers, tech companies, researchers and other 
developers, testers, and deployers of automated vehicle 
technologies; two, a model state policy to build a consistent 
national framework for the testing and operation of automated 
vehicles; three, an exploration of the use of our current 
regulatory tools that can be used to advance these 
technologies; and four, a discussion of possible new tools that 
the Federal government may need to promote the safe deployment 
of advanced technologies as the industry continues to develop.
    I would like to share just a few thoughts about our 
approach. For 50 years, our traditional approach has largely 
been reactive. NHTSA prescribed safety standards and then 
responds to problems as they arise.
    A traditional method of regulating these new technologies 
would be to engage solely in the rulemaking process, writing 
new regulations that prescribe specific standards, and 
typically, take years to take effect. Our view is that that 
approach would be slow. It would stymie innovation and it would 
stall the introduction of these new safety technologies.
    Our policy takes a different path built on proactive safety 
which will better serve both safety and innovation. This policy 
allows us to work with automakers and developers on the front 
end to ensure there are sound approaches to safety throughout 
the entire development process.
    This is a new approach and it is going to take some 
adjustment for everyone involved but we are confident that it 
will help us to accomplish two specific goals: first, to make 
sure that new technologies are deployed safely; and second, to 
make sure we don't get in the way of innovation. Our approach 
is not prescriptive. It does not tell developers how they must 
provide safety but, instead, builds a transparent and proactive 
approach to ensure that they are properly addressing the 
critical safety areas.
    But that future is not without threats. As President Obama 
wrote when announcing the policy, ``the quickest way to slam 
the brakes on innovation is for the public to lose confidence 
in the safety of new technologies. Both government and industry 
have a responsibility to make sure that doesn't happen.''
    It is our view the best way we can build that public 
confidence is by working together, showing the public that the 
government is on the side of innovation and that the industry 
is on the side of safety.
    I will submit the balance of my statement for the record 
and I look forward to taking your questions. Thank you.
    [The statement of Mr. Rosekind follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    
    Mr. Burgess. The chair thanks the gentleman. Now, as I 
previously outlined, we will go back to member opening 
statements and Ms. Schakowsky is recognized for 5 minutes for 
an opening statement, please.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. I thank you, Mr. Chairman. I really 
apologize for being late this morning and I thank you for 
accommodating that and I look forward to the questions that we 
can ask of our witness.
    I first want to take a moment to recognize a great loss in 
the auto safety community. On Thursday, Clarence Ditlow of the 
Center for Auto Safety passed away after a battle with cancer. 
For 40 years, Clarence led the Center for Auto Safety, where he 
was a tireless advocate for stronger and stronger auto safety 
standards. He fought for Lemon Laws to ease return of defective 
vehicles in all 50 states. And if you have ever had a recall on 
your vehicle, there is a decent chance Clarence was somehow 
involved in pushing the National Highway Traffic Safety 
Administration and automakers to take action. He provided 
tremendous insight to lawmakers over the years, including, as a 
witness before this very subcommittee.
    Clarence continued fighting for consumers until his final 
days. As recently as September, he was working with my office 
on reducing the number of used cars sold with open recalls. He 
even weighed in on today's topic. In August, he wrote an op-ed 
on the importance of strong safety standards for self-driving 
cars. Clarence has an outstanding legacy but I know he saw much 
work still to be done. I can think of no better a tribute than 
to continue his fight to improve auto safety and I hope we can 
do so on this subcommittee.
    Protecting consumers must be the key focus as we consider 
today's topic, self-driving cars. A car without a human driver 
could be an exciting development or a frightening proposition. 
Which one it is depends on whether we take the correct approach 
to the development of this technology.
    One of the key arguments in favor of self-driving cars is 
safety. According to NHTSA, 94 percent of car crashes are 
caused, in part, by driver error. Automation does have the 
potential to help, ensuring that autonomous vehicles improve 
safety requires thorough testing and oversight. We must 
evaluate not only how the vehicles' features work but also the 
effect of those features on human behavior.
    I appreciate NHTSA's efforts to be proactive in its 
approach to autonomous vehicles and I look forward to learning 
more about how its policy framework will work in practice.
    As we think about the long-term potential of safe-driving 
cars, we also need to consider the intermediate challenge. We 
are not going to shift to 100 percent self-driving vehicles 
overnight. Even if this technology is adopted relatively 
quickly, we will see a transition period where traditional 
semi-autonomous and fully autonomous vehicles share the road. 
All those vehicles and their passengers must be able to safely 
interact. We should also recognize the impact the self-driving 
cars have on those who drive for a living, taxi drivers, 
chauffeurs, delivery men and truck persons, and truckers.
    Automakers are still working through safety issues with 
autonomous vehicles. For example, two self-driving Teslas 
crashed this year. Cybersecurity is another critical area for 
autonomous vehicles to be successful. Hacking a self-driving 
car could put lives in danger. Developers must take the utmost 
precautions to prevent the cars' systems from being compromised 
and providing failsafe mechanisms of security measures are ever 
ineffective.
    Accidents involving self-driving vehicles raise new 
questions. How safe must self-driving cars be before we are 
comfortable having them on the road? When something goes wrong, 
when is it the fault of the manufacturer and when is it the 
fault of the user? NHTSA is adapting its traditional approach 
to auto safety as it considers the design, use, and safety 
features of self-driving vehicles. I welcome this initiative 
but I want to ensure that safety remains paramount.
    I also want to hear a firm industry commitment to safety 
and cybersecurity. As I said, innovation in self-driving cars 
has tremendous potential. If done right, this technology could 
save lives, increase energy efficiency, and provide convenience 
for consumers. We must make sure that the right policies are in 
place to achieve the maximum benefit from this technology. And 
again, I appreciate your indulgence and I yield back.
    Mr. Burgess. The gentlelady yields back. The chair thanks 
the gentlelady.
    Is Mr. Kennedy likely to be coming back or can we proceed 
with questions? Very well.
    And Dr. Rosekind, we thank you for your testimony. We will 
move into the question and answer portion of the hearing. I am 
going to begin the questioning by yielding to Leonard Lance 
from New Jersey for his questions.
    Mr. Lance. Thank you, Mr. Chairman. And good morning to 
you, Dr. Rosekind. I thank you and the other distinguished 
members of our panels who are appearing before us today on this 
important topic. And certainly, I thank you for your 
distinguished public service, Dr. Rosekind.
    Automobile accidents accounted for over 35,000 fatalities 
in 2015, as you have indicated; 562 of those souls lost were 
from the State of New Jersey. By removing driver error, which 
accounts for the vast majority of these deaths, autonomous 
vehicles have the potential to be the single greatest 
achievement in auto safety in our lifetime, savings tens of 
thousands of lives each year.
    As the subcommittee with jurisdiction over this topic and 
over the automotive industry, it is our job to make sure that 
innovation is allowed to occur and is not hindered by 
burdensome and unnecessary regulation while, of course, 
ensuring consumer safety which is paramount.
    Dr. Rosekind, the guidance states that it is not intended 
for states to codify as legal requirements for the development, 
design, manufacture, testing, and operation of automated 
vehicles. That is on page 11 of the guidance. Do you think that 
states should be codifying the guidance as some have signaled 
they intend to do?
    Mr. Rosekind. As you have already cited the specific quote, 
and that was intentional to put in there, was for states not to 
codify. What you have highlighted was everyone wants to see a 
consistent national framework. Nobody wants a patchwork. And so 
what is critical right now is to really distinguish the Federal 
role and the state role and making sure for the moment that 
people are focused on the safest possible deployment within 
those Federal and state rules.
    Mr. Lance. What would happen, in your professional 
judgment, if one state were to deem a self-driving automobile 
to be safe for testing and deployment but another state chooses 
to go in the completely opposite direction? It seems to me that 
would be quite a challenge but having served in a state 
legislature, having been the minority leader in our state 
senate in Trenton, I am aware that there are state 
responsibilities as well. And how should we go through this 
challenging situation to make sure that safety is paramount and 
innovation occurs to make sure that deaths can be fewer than is 
now the case?
    Mr. Rosekind. So, that highlights the patchwork concern, 
which is all of us drive across this great country without 
worrying about what driver's license you have from your state 
or that the car is even legal in that state. Just think if an 
autonomous self-driving car stopped at every state line because 
it wasn't allowed there, or that every manufacturer or 
developer had to have 50 different approaches to dealing with, 
so again, that is why everybody wants to avoid that patchwork.
    Right now, I think the clarity of what the federal role is 
and the state role is the way to go. We have seen California 
wait for this policy to come out, make adjustments to try and 
be in line. We did the policy in collaboration with the 
American Association of Motor Vehicle Administrators, all 50 
DMVs and we will continue to work with the states. But you have 
brought up an ongoing vulnerability here, as we move forward.
    Mr. Lance. Are there certain states that are more likely 
than others to advance state initiatives, perhaps California, 
perhaps other states as well? And should we be discussing this 
with various state capitals or should our congressional 
delegations be discussing this with various state capitals?
    Mr. Rosekind. We hope everyone is going to be discussing 
this. One of the things that you are highlighting is that there 
are some states that are really on the leading edge of this, 
California, Michigan, Pennsylvania, Florida, District of 
Columbia actually has some work as well. And so there are a lot 
of ongoing discussions that are happening now.
    I think the intent is for people to make sure they 
understand the policies and guidance in this area. And one of 
the things for all the states to understand, we try to make 
explicit, is states actually don't have to do anything in this 
area. There is no action needed for testing of deployment at 
this stage. If you are interested, as a state, then this policy 
outlines the Federal and state roles.
    Mr. Lance. Dr. Rosekind, you mentioned Michigan, Florida, 
and Pennsylvania. I have nothing bad to say about any of those 
three states this week, Dr. Rosekind.
    The Federal Automated Vehicle Policy mentions the 
possibility of convening a commission to study liability 
insurance issues. Do you have a view on that?
    Mr. Rosekind. I think that is a great example of in the 
Secretary's letter in the beginning he really highlights there 
are a lot of unknowns that have to become known. So that is a 
specific example of how do we handle liability. If we don't 
come out with the answer, we suggest a commission that would 
deal with that for the states to understand the best way 
forward.
    Mr. Lance. Thank you very much, Dr. Rosekind, and my time 
has expired.
    Mr. Burgess. The chair thanks the gentleman. The gentleman 
yields back. The chair now recognizes the gentlelady from 
Illinois, Ms. Schakowsky, 5 minutes for questions, please.
    Ms. Schakowsky. Dr. Rosekind, I first wanted to thank you 
for your service as Administrator of NHTSA. I appreciate being 
able to work with you. I don't know but this may be your last 
time testifying before this committee as part of the 
Administration and I just want to thank you very much for the 
work that you have done and for consumers and working with this 
subcommittee.
    So, I have two questions. I am going to ask them together 
and then leave the time to you.
    While the expected benefits of automated vehicles have been 
widely discussed, so, too, have their technological 
shortcomings, reports indicated that potholes, construction, 
pedestrians, pavement covered in rain or snow may still flummox 
the vehicle's operating system. So, the first question was can 
you describe what some of the real world testing is finding? 
What are the problems and do they tell you and the industry 
about when fully autonomous vehicles will be ready to safely 
carry passengers without human intervention? That is the first 
question.
    And the second one, recent controversies surrounding 
General Motors, Volkswagen, Takata air bags, and others show 
that the automotive industry doesn't have always a great track 
record with the consumer trust in recent years.
    So, if the industry says trust us with autonomous vehicles, 
why should consumers take them at their word and what 
assurance, then, can the industry give consumers and give the 
regulators that their vehicles will be safe to operate?
    Mr. Rosekind. So, to your first question, I would say prior 
to January that was the number one issue that everyone raised. 
When will they be here? And what was interesting is in January 
we were pointing out at both DOT and NHTSA that frankly, these 
technologies are already on the road. We already have adaptive 
cruise control, automatic emergency braking, blind spot 
monitoring, Lane Assist, all these things are already on the 
road. So, one of the challenges we have had is actually helping 
people to learn about the different levels of automation. And 
just to be very, very sort of strict about it, the highest 
levels of self-driving vehicles is where the passenger, driver, 
individual in the vehicle, perhaps no individual at all, has no 
responsibility for monitoring the vehicle or the environment. 
Those are the highest levels, basically, of a truly self-
driving vehicle.
    So, to your question, I am not sure anybody knows quite yet 
how far off we are. In fact, I would say in the last 6 months, 
we are starting to see people actually acknowledging how hard 
this problem is to get to a full self-driving car.
    On the other hand, we also have level 3 which is where the 
operator still has to be engaged, both in monitoring the 
vehicle and the environment. And there may be situations where 
that operator, that driver, would have to actually have the 
vehicle hand off to the operator in some situations that you 
were just mentioning, weather conditions, infrastructure that 
wasn't known, et cetera, the driver has to still be vigilant in 
monitoring what is going on. People question whether that is 
even possible with this new technology.
    So, what you have just highlighted is when nobody knows. 
And the questions remain, do we still need that driver engaged? 
Can we go to full self-driving? Those questions remain open.
    And I would just say that the Department has really left 
open the answer to that by letting the data tell us whether or 
not level 3 is possible, full self-driving level 5, how those 
will go forward. The data will tell us where we are.
    So, I think everything you just highlighted is exactly the 
very challenging sort of thread the needle issues we have.
    Ms. Schakowsky. So, we may have implementation of different 
levels, though, in a different timetable.
    Mr. Rosekind. Correct. And that is why I say your issue 
about transition, so I would love to point out that if there 
were a perfect fully self-driving car available tomorrow, right 
now, the average age of vehicles is 11 and a half years, it 
would take 20 to 30 years for the whole fleet to take over if 
we had full self-driving.
    So, to your point, for the next 20 or 30 years at least, we 
will likely have a mixed fleet of different levels of 
automation and different people actually out there driving.
    And I think that is also extremely well placed, which is a 
lot of folks have talked about the big era of recalls that just 
happened. That is not good. We have tried to move to a 
proactive safety approach. I would highlight that NHTSA has not 
given up and will continue to pursue all of our rulemaking and 
enforcement authorities. Anybody who has watched us over the 
last few years knows we will use whatever we need to to help 
keep people safe on our roadways.
    But one of the things I think we can highlight is a year 
ago in January the Secretary announced a proactive safety 
agreement with 18 global automakers. That wasn't just words. In 
fact, we have already seen best practices come from the 
industry, basically on cybersecurity. We saw 20 of them come 
together and basically make a commitment to get automatic 
emergency braking on the road standard in all of their vehicles 
by 2022, beating regulation by probably 3 to 4 years. And we 
just recently had a Volvo truck recall that hit 100 percent 
completion rate for 16,000 vehicles, which is sort of 
groundbreaking with the speed that was done. That was part of 
that agreement, 100 percent completion rate. It is only the 
beginning but it is not just talk. We are seeing very concrete 
actions.
    But to your point, we have to watch to make sure that they 
actually meet what the requirements are.
    So, I will just close. There is a 15-point safety 
assessment that people have to provide for us. There is a lot 
of discussion is it required or not. If you want everyone to 
trust what you are working on as a manufacturer, technology 
developer, we think you would want the most transparent, 
thorough public notice of what you are doing to address safety 
up front.
    Ms. Schakowsky. Thank you very much.
    Mr. Burgess. The chair thanks the gentlelady. The 
gentlelady yields back. The chair recognizes the gentleman from 
Kentucky, Mr. Guthrie, 5 minutes for your questions, please.
    Mr. Guthrie. Thank you, Mr. Chairman and thank you, Dr. 
Rosekind for being here today. We appreciate it a lot.
    I understand the importance of self-driving cars, as we 
look for ways to dramatically improve traffic safety. In 
Kentucky, alone, we have had 761 fatalities last year. So, I 
know we need to better understand this issue.
    But I had a chance to meet with the MTC truck driver 
training school in Elizabethtown. And of course, they are 
closely following the development of this new technology. And 
they brought this point up to me and I had never thought of it 
or considered it but I understand that there are homeland 
security issues, which have been raised in commercial 
transportation sector and it is this 15-point list on safety 
expectations for autonomous vehicles includes a point on 
digital security to prevent hacking into vehicle systems. I 
never would have thought of that until they brought that up.
    And has NHTSA considered the broader homeland security 
issues surrounding digital security of autonomous vehicles?
    Mr. Rosekind. Yes, that issue has actually come up. We had 
two public meetings in our open docket for months while we were 
creating the policy and those issues were brought up already. 
So, frankly, not only are we looking at them but Homeland 
Security has already been informed because they have a lot of 
the issues and questions.
    Mr. Guthrie. That was my next question. Are you all 
coordinating with each other on this?
    Mr. Rosekind. Absolutely. We have already had meetings.
    Mr. Guthrie. OK, thank you. Well, on a related note in your 
testimony, you mentioned that the guidance was developed in 
close coordination with the American Association of Motor 
Vehicle Administrators, individual states, and other 
stakeholders. Who were those other stakeholders mentioned in 
your testimony?
    Mr. Rosekind. We have a long list. I am happy to send, 
there was a public docket.
    Mr. Guthrie. OK, probably easier to just submit it.
    Mr. Rosekind. Yes. Yes, we will submit that to you.
    Mr. Guthrie. OK, good, if you don't mind doing that.
    Mr. Rosekind. Sure.
    Mr. Guthrie. How do you expect entities to certify 
compliance with each of the 15 areas or certify that they are 
at least addressed, each of the 15 areas? How are you going to 
ensure?
    Mr. Rosekind. Yes and thank you because you just raised a 
really critical issue. We identified 15 safety areas that they 
have to address. That is what is included in the letter. But it 
is very important to realize we don't tell people how to get 
there. You have to address this but there is no judgment about 
compliance or not because we don't set a prescription there. 
And so our evaluation is whether they have addressed it or not, 
not whether there is a bar that they have passed.
    Mr. Guthrie. OK, good. And what kinds of information do you 
expect to collect on each of the 15 areas? I guess my 
understanding from the letter is it is only expected to be two 
pages long. So, I think you might have answered that question. 
What do you expect them to do versus what you are asking them 
to do?
    Mr. Rosekind. That is actually a good question. We haven't 
addressed that yet. I will just say that we just last week had 
another public meeting and one of them was specifically on the 
letter. Right now what we are telling people is not a page 
limit but this is literally a C-suite. If a CEO had to get 
briefed on these 15, what information would you provide that 
individual so they could sign off on it?
    Mr. Guthrie. OK.
    Mr. Rosekind. So, there has got to be enough to make a 
decision. If we need more information, we will ask for it.
    Mr. Guthrie. OK, good. And does NHTSA plan to make the 
safety assessment letters public and do you expect the safety 
assessment to include confidential business information that 
would need to be redacted?
    Mr. Rosekind. So, we absolutely do hope to have 
transparency, so it would be public. And NHTSA, for a long 
time, has great experience in protecting confidential business 
information. That is not the intent of that letter. It really 
is to focus on safety and letting manufacturers, developers, et 
cetera, let the public and us know how they are addressing it.
    Mr. Guthrie. Well, thank you and I appreciate your thorough 
answers and in the submission of the other stakeholders was 
something we would request. You have answered my questions and 
I yield back my time. Thank you.
    Mr. Burgess. The chair thanks the gentleman. The gentleman 
yields back. The chair recognizes the gentleman from 
California, Mr. Cardenas, 5 minutes for questions, please.
    Mr. Cardenas. Thank you. And thank you, Mr. Chairman for 
having this hearing. It couldn't be soon enough because this is 
moving very, very fast and hopefully we will have tremendous 
success not only to the manufacturers but to the consumers and 
everybody in-between.
    Dr. Rosekind, my first question has to do with the timing. 
There is so much out there. Some people are saying we are going 
to see these cars on the road soon in limited or mass 
production, et cetera. What does soon mean from what your 
vantage point is? Are we looking at 2017, 2018, 2025? And if 
so, what is the likelihood of us seeing mass utilization on our 
public roads?
    Mr. Rosekind. We are already seeing certain safety 
technologies on the roads today. So, adaptive cruise control, 
automatic emergency braking, blind spot monitoring, these 
technologies are already available. And so when people say when 
will we see them, they are already here. When we look at fully 
self-driving, those are years off. And in fact I was just 
commenting I think just in the last 6 months or so, we are 
hearing from a lot of folks that they are understanding how 
hard a problem this problem really is. So, as much as people 
are giving us target dates, we will have to wait and see those 
coming.
    The final thing I would just say is what you are also 
highlighting is there will probably be several decades where we 
will have a mixed fleet of different levels of automation and 
people still with their hands on the wheels that all of us will 
be in for at least again potentially 20 plus years.
    Mr. Cardenas. Well, this is a very individual matter for 
those who would ever think of driving a fully automated 
vehicle. My father 40 years later used to tease my mom how the 
first time he drove up in a little Model T in the 1940s, she 
wouldn't get in the car. This contraption; I am not going to 
sit in it. However, we are talking about today's contraptions. 
Sorry for the rudimentary description but it is my 
understanding that because of the interest in ensuring that 
components of autonomous vehicles are safe from cyber 
intrusion, some have expressed concern about retrofitting 
existing vehicles with the technology that would help prevent 
that. Does aftermarket autonomous technology present 
cybersecurity risks?
    Mr. Rosekind. Actually, all the vehicles create 
cybersecurity vulnerability. So, on our list of 15 safety 
issues, cybersecurity is one of them and, basically, the same 
concerns as you apply to new would have to be to any kind of 
retrofit as well.
    Mr. Cardenas. OK. Now, when it comes to the fully 
autonomous vehicles because I think that is the Holy Grail of 
what the industry is looking at and what I think quite a few 
people on this plant would love to see that happen for a lot of 
good reasons, but what concerns me is when people try to rush 
things through and push an organization like yours to just get 
it done, it is unfortunate, because there is no shortage of 
people on any given day that would go ahead and jump off of a 
mountain with a little tiny parachute and think that is the 
most awesome thing in the world. However, if that parachute 
doesn't come out, one person gets hurt and they are in control 
of themselves, if they have the freedom to do so and they did 
so.
    But the issue that we are talking about here today, if 
somebody actually does something that they find is not risk-
taking at all, we are talking about the public roads. We are 
talking about if something goes wrong it is not just the person 
who made the decision to be in that vehicle. It is other 
individuals out there and that is the demand and the 
responsibility of your department that I respect so much.
    So, with that having been said, how do you feel about the 
resources that you have and the ability for you to keep up with 
this tremendous demand that the world is saying hurry up, we 
need to see this happen. And with all due respect, being 
Americans, we always like to be the first.
    Mr. Rosekind. Let me actually slightly expand that, which 
is when we did the press conference to issue the policy, the 
Secretary's last question is, does DOT and NHTSA have the 
expertise and resources to get this done? And I love this 
Secretary's answer because basically we are the ones who 
created it. We have the expertise but you are bringing up a 
really, really critical element. And that is, with the 
explosion of innovation that we all want to see to help with 
safety, the agency absolutely will need to build on that 
expertise and expand the resources to make sure we can really 
timely meet the needs that are going to be out there to get 
safety.
    There are some things we have suggested that I think have 
just totally surprised people about our commitment to get 
interpretations out in 60 days, exemptions in 6 months. You 
need resources to pull that off. Even the letters we are saying 
4 months, that is up to 4 months. If we want those evaluations 
done, we are going to need to make sure that the expertise we 
have grows and we have enough resources to meet the demand 
quickly but safely.
    Mr. Cardenas. Because lives are on the line, right? 
Unfortunately, ultimately, that is what it is and we are not 
just talking about the person that chooses to be in such a 
vehicle. We are talking about people around them that gosh, I 
don't know what the statistic is but I would imagine the 
average person passes up hundreds, if not thousands of people 
on any journey to and from work on either side of them.
    So, thank you for doing the job that you have. Hopefully, 
we will see Congress, who has the power of the purse, continue 
to give you the resources you need to keep up. Thank you.
    Thank you, Mr. Chair. I yield back.
    Mr. Burgess. The chair thanks the gentleman. The gentleman 
yields back. The chair recognizes the gentlelady from Indiana, 
Mrs. Brooks, 5 minutes for questions.
    Mrs. Brooks. Thank you, Mr. Chairman.
    As Congressman Lance just talked about New Jersey last 
year, there were 821 driving fatalities in Indiana alone, which 
was a 10 percent increase from the previous year. But they, 
obviously, we talk about these big numbers but one particularly 
that happened in my district, Susan Jordan, who is the 
principal of Amy Beverland Elementary School served in 
Lawrence, Indiana, was killed tragically by a school bus that 
rolled in front of her, as she pushed children out of the way. 
And so for many families who have lost loved ones, I would say 
the auto industry and ensuring that cars, and buses, and other 
vehicles are as safe as possible, we need to not stand in the 
way of this innovation, whether it is pedestrian detection, 
lane warnings, pre-collision assist that can eliminate the 
human error that could save lives like Principal Jordan's.
    I want to ask a question, though, with respect to NHTSA's 
Federal Automated Vehicle Policy where you are requesting large 
amounts of data from the auto industry on the operation and the 
execution of the highly autonomous vehicle technologies that 
includes a lot of potentially sensitive information about 
businesses and consumers. But on the other hand, we recognize, 
and you have just talked about it in response to Congressman 
Guthrie's question, multiple attacks from whether it is foreign 
or domestic bad actors attempting to get that data.
    Without going into great detail, what kind of protections 
does NHTSA plan to have to ensure that this sensitive 
information isn't getting into bad actors' hands?
    Mr. Rosekind. First, thank you for telling Principal 
Jordan's story. We talk about these big numbers but everyone is 
a person and a face. So, thank you for doing that.
    Mrs. Brooks. You are welcome.
    Mr. Rosekind. It just is so critical.
    And you are bringing up a really interesting piece, which 
is, as we talked about earlier, our intent is to get literally 
a CEO summary of what information goes into the safety 
assessment and then the developer, automaker, et cetera, they 
keep all that other data. So, it is only if there is 
information that we ask for that they are going to have to give 
us more. And the other part is we only need to see confidential 
business information that helps to make their point. Everything 
else, they get to keep. And for decades, we have been 
protecting that.
    So, we are looking at the safety information. We just had a 
meeting on the letter to try and decide how to get information 
and you can keep all that confidential business information 
away and redacted as needed, we have been doing that forever. 
We will continue to do that here.
    Mrs. Brooks. So, you are indicating that NHTSA is not going 
to be keeping the sensitive competitive information between the 
different automakers.
    Mr. Rosekind. We are not actually interested in that. We 
just want to know here is 15 areas. Tell us how you have 
actually addressed it. Part of the way that we are actually 
supporting innovation is I hope everyone in the room would come 
up with a different way of handling each of those safety areas. 
And then we will let the data tell us which ones are actually 
going to be the best for the future.
    Mrs. Brooks. And with respect to the auto industry's 
information showing an analysis center, what role are they 
playing or should they play in addressing the cybersecurity 
issues?
    Mr. Rosekind. Critical. I mean basically with a lot of 
urging from NHTSA and a lot of work on the industry's part, 
they have come up with this cybersecurity mechanism to really 
help deal with the vulnerability. They will be a core part of 
protecting these vehicles in the future.
    Mrs. Brooks. It is my understanding that the safety 
assessment letter is requiring, when any significant update to 
a vehicle is made, that NHTSA requires the manufacturer to 
submit the safety assessment letter. Can you please explain 
what is meant by a significant update and the impact such a 
process will have on testing that the developer of the 
autonomous vehicle is forced to submit a new letter and if it 
is every 4 months on any changes made during testing? Can you 
talk more about what the meaning of significant changes means?
    Mr. Rosekind. This is why our interactions have been so 
critical because, basically, if you have a vehicle that has 
only been driving on the highway and now it is going to go in a 
city, that is significant. If you have a vehicle that yesterday 
hit a pothole and now hit has been programmed to miss the 
potholes, we don't need to know about that.
    And when you submit your letter if of the 15 there are only 
2 that have been affected, you only need to send us those two 
areas.
    Mrs. Brooks. So, are you leaving it up to the manufacturers 
to determine the definition of significant or are there a 
number of examples that they are being provided to help them 
determine what is significant and what is not significant?
    Mr. Rosekind. So we will be creating a template for the 
letter, so people have a sense of what we are looking for.
    Mrs. Brooks. OK.
    Mr. Rosekind. We will be having guidance on where to fit 
their level of technology and automation for them. We will have 
examples of what is significant for people as guides.
    Mrs. Brooks. And what happens if a manufacturer doesn't 
submit the safety assessment letter? Are there ramifications?
    Mr. Rosekind. That is probably one of our biggest fears, 
frankly, which is that this is an opportunity for folks in this 
area, in a proactive way, at the front end to show us what you 
are doing about safety. We would hope, whether it was required 
or not, it doesn't really matter, you want to show the public 
and NHTSA what you are doing to address safety in these 
vehicles. That is an opportunity. We hope everybody is going to 
take it and be enthusiastic about it.
    Mrs. Brooks. But right now, NHTSA doesn't have the 
authority, is that right, if a manufacturer chose not to submit 
a letter? Is that authority you would like to have?
    Mr. Rosekind. So, it is not required at this point. It is a 
policy. But to your point, one of the areas that we have 
actually identified as potential future regulations would be to 
require the letter, which is a great example of require the 
letter but stay nimble and flexible to what the categories are 
that are covered. In the future, there may only be ten areas 
that are needed. In the future, there could be 20.
    Mrs. Brooks. Thank you. I yield back. Thank you.
    Mr. Burgess. The chair thanks the gentlelady. The chair 
recognizes the gentleman from Oklahoma, Mr. Mullin, 5 minutes 
for questions, please.
    Mr. Mullin. Thank you, Mr. Chairman. Doctor, good to see 
you again. Thank you for the work you are doing here.
    I want to kind of follow-up a little bit on what my 
colleague from Indiana was questioning about. I think clarity 
is, obviously, very important and we don't want to be over 
burdensome on new technology. We don't want to stifle the 
entrepreneur that is going to be out there that is going to be 
making the investment because this is investment. It is an 
investment in an unknown area knowing where the regulators are 
going to fall into.
    But I think we all are looking for just an idea of where 
the floor is. So, if they are going to be investing, they can 
be investing in the right direction. And so I would like you to 
speak a little bit on that. Where do you feel like the floor is 
going to be so we can move forward with this technology? I will 
be honest with you, I am not a big fan of it. I like driving. I 
mean my wife drives an SUV that has got the adaptive cruise. I 
can't stand it. Every time I get close to a line, it vibrates 
on my back side because of the seat and it just scares the 
living daylights out of me but I get it. My wife loves it.
    And so I see the need for it for those that like the idea. 
So, as the technology moves forward, if you could give us some 
direction on where you are moving so we can work with you on 
it.
    Mr. Rosekind. I want to hit that point, though, I think 
which is----
    Mr. Mullin. The vibrating part?
    Mr. Rosekind. The fact that we are not going to take the 
steering wheel out of some people's hands.
    Mr. Mullin. Right.
    Mr. Rosekind. I am from California. It is just the top is 
down and you are on Highway 1 with the Pacific Ocean on the 
side. It is like people are going to want to do that for a 
long, long time. And for all of our belief in the opportunity 
to save lives, this is the idea. We are going to have a mixed 
fleet for a long time. People who want to have their hands on 
the wheel, it is just going to be there for a long time.
    So, to your point, though, about what kind of guidance you 
get, the way the policy is set up is to identify specific areas 
within safety that have to be addressed without prescribing 
how. It is basically DOT and NHTSA's way to support innovation. 
So, we would love to see as many different approaches to how to 
deal with that safety as possible. Show us what data you have.
    If you think about the future path, at some point, there 
will probably be best practices accepted by the industry. Those 
will be the ones that have data that have demonstrated this is 
the way to go. If there is future regulation, that should come 
from the best practices.
    Mr. Mullin. Some of the manufacturers that I have heard 
from, though, they are fearful of sharing the technology. This 
is a race to the finish line. The only problem is, we don't 
know where the finish line is.
    Mr. Rosekind. And that is a great point, which is people 
have talked. We have suggested there about data sharing, for 
example. And people are very concerned because data means 
money. Our issue is all about the safety. So, just think about 
sharing that data so that one crash would be able to educate an 
entire fleet to improve everything literally overnight. That 
would be great.
    We are interested in the safety, not the solution that 
people use that could be proprietary. That is for them to keep 
confidential.
    Mr. Mullin. Thank you. I yield back.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman. The chair would remind the subcommittee that the 
chair allowed members to go first. So, I am going to ask my 
questions now at the end.
    And Dr. Rosekind, again, it has been a privilege to come to 
the subcommittee. Every time you are here, you and I talk 
briefly about the safercar.gov Web site so that people can 
check for recalls on their vehicles. And I just think it is 
extremely important, as we are coming into the Thanksgiving 
driving season. You ought to do it. You ought to do it for your 
spouse's car. You ought to do it for your kids' cars. You ought 
to just be sure. As we have learned over the last year and a 
half or 2 years, the recalls can change and what was not under 
recall a few months ago could be under recall today. So, I do 
encourage people to take advantage of the fact that you will 
make that information available to them. And although it is not 
part of our hearing today, I wonder if you could give us just a 
brief update of where we are with the Takata air bag situation 
and what you see as some of the next steps.
    Mr. Rosekind. And I just have to say every time I have 
appeared before you, you make sure safercar.gov gets into the 
record, that there is a point on making sure people are 
thinking about this. And from an agency whose mission is all 
focused on lifesaving, we always appreciate that so much.
    For Takata, we are at about 29 million vehicles, about 46 
million inflators. Maybe 20 percent have been repaired at this 
point. We are imminent for basically a new coordinated remedy 
that will have sort of the years of when supplies and fixes 
need to come. So, that will be out literally within weeks we 
hope of what sort of the next phase will be.
    I will say, tragically, 9 of the 11 lives that have been 
lost had to do with alpha inflators, ones that were actually 
from 2001-2003 recalled 2008-2011. About 300,000 of those still 
exist out there. They have a 50 percent of rupturing in a 
crash. We are really working with Honda and Acura, in 
particular, to try and get those off the road.
    Mr. Burgess. So that you are----
    Mr. Rosekind. The 2001 to 2003 vehicles, and these were 
actually recalled in 2008-2011. So what happened was, because 
of the most recent activity going on, testing that was never 
done back then was recently done and that is how we discovered 
these alpha inflators have a 50 percent chance of rupturing.
    The Secretary came out and basically said don't drive it 
unless you are going to a dealer to get it fixed. And so we are 
working with Honda to basically figure out every possible thing 
that could be done to find those people. Nine out of the eleven 
lives lost were those alpha inflators.
    Mr. Burgess. Well, I am encouraged that you say that the 
solution or a solution is now within reach and I am grateful 
for that.
    Let me just ask you, and several people have asked you 
about the letters, the safety assessment letter on self-driving 
vehicles. And I appreciate why that information is necessary 
and, unlike you, I think more data is good. At the same time, 
from the manufacturers' perspective, I can see that perhaps 
there might be some liability concerns about putting too much 
information out there. And then, of course, the tendency is to 
hold back because you don't want to incur that liability. Have 
you worked through that issue at all?
    Mr. Rosekind. We are working through it. And what we are 
doing, literally just last week, we had a meeting specifically, 
a public meeting with an open docket for people to tell us how 
they think that letter should be structured and what content 
there should be. We will create a template so people have a 
guide. And we are trying to be explicit that it is not the 
confidential business information that we are after. It is tell 
us how you have addressed these particular safety issues.
    And the agency has been dealing with confidential business 
information for decades. And so we already have experience 
working with the manufacturers to know how to protect them. So, 
we do need to work that out but we are pretty confident that is 
an area, knowing it is an issue, we can figure it out.
    Mr. Burgess. One of the things I really dislike about 
driving is to have to get a vehicle inspection every year but I 
do it because it is the law in Texas. You are talking about 
systems that are going into cars that likely are going to 
require some maintenance, some calibration, some checking from 
time to time. Do you see this as being included as part of a 
standard vehicle safety inspection?
    Mr. Rosekind. That is a great question. And part of that is 
because one of the clear things out of Takata was time, that 
those inflators basically had a service life. And so that 
question is now being asked of the future. These sensors, 
radars, cameras, LIDARs, et cetera, clearly have a service 
life. How they will be maintained is an open question that 
needs to be addressed in this coming period.
    Mr. Burgess. Every time I back out of my driveway and the 
little backup camera comes on and I, of course, think of Ms. 
Schakowsky because she is associated with that. But I have also 
learned, since having one of those backup cameras on my car, 
that every now and then I have got to get out and squeegee the 
little sensor or the little lens because it can get so occluded 
that I couldn't see anything. If the neighbors' cat was walking 
back there, it would be lights out.
    So, I understand that there is a modicum of maintenance 
that the operator must provide. The vehicle can't do everything 
for you all the time.
    Again, it has been a pleasure to have you in the 
subcommittee. Oh, I beg your pardon. Mr. Kinzinger has showed 
up. So, let me yield 5 minutes to Mr. Kinzinger for questions.
    Mr. Kinzinger. Thank you, Mr. Chairman. Just when you 
thought you were going to go home.
    Thank you for holding the hearing today on autonomous 
vehicles. Next week is Thanksgiving or it is coming soon, I 
guess. Yes, next week. And as a country, we will put millions 
of miles on our vehicles. It reminds us that we need to do 
better as a nation to drive safer and reduce vehicle 
fatalities. As so many of our colleagues have pointed out, 
vehicle accidents are claiming too many lives and, as of late, 
that rate is growing in the wrong direction.
    In Illinois, 998 lives were lost last year in vehicle 
accidents. Tragically, it is an increase of eight percent from 
the year before.
    Like many in this room, I see great promise in how 
connected vehicles, assisted driving technology, and autonomous 
vehicle technology can play in reducing the number of vehicle 
deaths. I applaud NHTSA for laying out a framework that will 
allow automakers, software developers, and other stakeholders 
to blaze a path forward in transforming vehicles and making the 
roads in the future safer. I hope today's hearing is a starting 
point for our committee, as we consider the wide-ranging policy 
issues that autonomous vehicle technology touches.
    But Dr. Rosekind, again, thank you for your service. Thank 
you for everything you have been doing. I would like to ask you 
about the Federal Automated Vehicles Policy released in 
September, as a few people have mentioned.
    It mentions the possibility of convening the Commission to 
study liability and insurance issues and it also clearly states 
that insurance and liability apportionment are state 
responsibilities, as they are now and makes no argument for 
that change.
    What role do you see auto insurance playing in the future?
    Mr. Rosekind. That is to be determined. Great piece to 
bring out, which is there are a lot of unknowns here that need 
to become known. That was an example of since we don't know 
that but we know the question, let's have the states get their 
group together to figure out how this is going to go for the 
future. Big questions there.
    Mr. Kinzinger. OK. And the AV guidance does a really good 
job defining the roles of the federal regulators in the states. 
NHTSA is responsible for overseeing the design and performance 
of motor vehicles, while states regulate things like driver 
licensing, insurance liability, et cetera. The goal is for 
manufacturers to be able to sell, obviously, across all 50 
states. In fact, guidance says that states should not codify 
them.
    But would you agree that if a state were to require 
compliance with the guidance before an AV could be sold in the 
state, that would be the same thing as codifying the guidance 
and why or why not?
    Mr. Rosekind. So, the good news now is everybody is very 
interested in seeing a unified, consistent framework. And so to 
your question, what we are already seeing states basically 
challenge with is what language they use to describe exactly 
what you are talking about. So, if somebody says certify the 
letters there, they are worried there is a whole other 
evaluation going on when in fact the state may just say make 
sure we get a copy of the letter. But those were exactly the 
things we have to make sure there is consistency for everyone 
so that patchwork doesn't get created.
    Mr. Kinzinger. OK. And are you all monitoring what 
legislative proposals are coming out from the state, since the 
agency issued its guidance? And is NHTSA continuing to work 
with states on regulatory policy addressing self-driving 
vehicles?
    Mr. Rosekind. We are not only monitoring but we actually 
made an effort before the policy was released to put in a chart 
with all of that but it is moving too fast. So, we are going to 
continue monitoring.
    And we have just had two meetings, one about the policy, 
one about the template letter, and the third one is going to be 
with the states to talk about the state policies and other 
actions they might take. We are hoping that will come up this 
month or right after the new year.
    Mr. Kinzinger. Great. And the policy asks automakers and 
other entities to voluntarily submit a letter referred to as a 
safety assessment letter that outlines how the entity has 
addressed 15 areas prior to the testing and deployment of 
autonomous vehicles. Can you explain what NHTSA will be doing 
with the safety assessment after it is received?
    Mr. Rosekind. So, that letter is intended to basically have 
whoever the manufacturer, developer, tech company, et cetera, 
communicate to NHTSA and the public how they have addressed 
those 15 safety areas. And we are trying to make it very clear 
we are not passing judgment. We are just ensuring that they 
have addressed all of those different areas. We are going to 
have a template for what that letter should look like. We are 
going to have a template for what our response could look like. 
And frankly, right now, the first response you might get would 
just be thank you or it could be send us more information about 
X.
    Mr. Kinzinger. OK. So, you kind of have a plan in place to 
determine if it is adequate or whatever. And then as or will 
NHTSA hire subject matter experts like software engineers to 
analyze and understand software updates submitted for review?
    Mr. Rosekind. So, when Secretary Foxx answered the last 
question when this policy was issued, that question was so does 
NHTSA have the right expertise. He pointed out that it was 
NHTSA that created this policy.
    We have got the expertise. We will be looking to expand 
that and resources because if this area grows the way we think 
it could, there are going to need to be more people with that 
expertise into the future.
    Mr. Kinzinger. OK. Well, I just want to say again, thank 
you and thanks for answering my questions quickly and 
efficiently.
    Mr. Chairman, I will yield back the balance of my time.
    Mr. Burgess. The chair thanks the gentleman. The gentleman 
yields back. The chair recognizes the gentleman from Florida, 
Mr. Bilirakis, 5 minutes for questions, please.
    Mr. Bilirakis. Thank you so much. I appreciate it. Thank 
you, Mr. Chairman. I thank the panel for their testimony.
    I understand that NHTSA is thinking about future 
regulations requiring manufacturers to submit a safety 
assessment letter. Do you think that the safety assessment 
letter, if required, would preempt state laws and regulations 
regarding design and performance of autonomous vehicles?
    Mr. Rosekind. It is really two different elements we are 
getting to there. One is the 15-item safety assessment is 
basically to let NHTSA and the public know that these 15 areas 
of safety have been addressed. It is, as a policy, not 
required. And what we have identified, if there were 
regulation, there might be a requirement to submit that letter 
but we would keep it nimble and flexible. That 15 could become 
12 or 20, based on future innovations, basically.
    And really at this point, part of what we tried to do with 
the states to avoid the patchwork was clarify here is what the 
federal agencies will take care of; here is what the states 
should take care of. We have those vehicle standards to take 
care of. They should be handled by this letter.
    Mr. Bilirakis. Thank you. In your view, would inconsistent 
state laws and regulations, I know you addressed this somewhat. 
Would inconsistent state laws and regulations related to the 
design and performance of autonomous vehicles hinder innovation 
in this lifesaving technology? How do we ensure that state laws 
and regulations on self-driving cars are uniform and 
consistent? And is there a role for Congress to play?
    Mr. Rosekind. So, you have just identified, and it has been 
raised previously, that is a vulnerability that remains. If 
there is a patchwork, that could really hinder not just 
innovation but the opportunity to save these lives. And so 
right now, the policy outlined some very specific ways for 
states, if they choose to get involved, here are some errors 
they could start with. This is an area I think we all have to 
stay tuned as meetings and discussions go on to see whether or 
not everyone is going to actually deliver on that unified 
consistent framework.
    Mr. Kinzinger. Thank you. Next question. With regards to 
the safety assessment letter, does NHTSA anticipate suppliers 
would have to apply for exemptions to test vehicles with level 
two to five systems or would be the safety assessment letter be 
limited to manufacturers?
    Mr. Rosekind. If you look, the policy actually is really 
explicit. Anybody who is in this arena should be submitting a 
letter, potential, so that is manufacturers, suppliers, tech 
companies, et cetera. One of the questions we have been 
getting, though, is if you have a collaboration, say between 
the manufacturer, a ride-sharing, and a technology company, who 
submits the letter. And that is something where we will work 
with them to basically decide whether we get one letter or at 
least one integrated one that has all three of those 
represented.
    Mr. Kinzinger. Thank you. Have you worked with the Federal 
Motor Carrier Safety Administration in the development of these 
guidelines and have you been working with the trucking industry 
in developing self-driving policies?
    Mr. Rosekind. So we were, as part of the Department of 
Transportation, we are in touch with all of the department, but 
in particular the Federal Motor Carrier Safety Administration 
about this as well.
    We had two public meetings and an open docket. So, I can 
tell you the trucking industry, we had a least dozen 
interactions with them. And in fact, to the public docket, 
their trade association submitted comments. So, there has been 
a lot of interaction with them already and there will continue 
to be.
    Mr. Kinzinger. Very good. Thank you. I yield back, Mr. 
Chairman. I appreciate it.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman.
    There being no other members wishing to ask questions, I do 
want to thank our witness for being here today. This will 
conclude our first panel. Again, Dr. Rosekind, thank you for 
your service. We will take a brief, two-minute recess to set up 
for the second panel.
    [Recess.]
    Mr. Burgess. Welcome back. Thank you all for your patience 
and I thank our panel for taking the time to be here today. We 
will move into the second panel for today's hearing. We will 
follow the same format as the first panel. Each witness has 5 
minutes for an opening statement, followed by questions from 
members.
    For our second panel, we have the following witnesses: Mr. 
Mitch Bainwol, President and CEO for the Alliance of Automobile 
Manufacturers; Mr. Kirk Steudle, Director at Michigan 
Department of Transportation; Ms. Laura MacCleery, Vice 
President of Consumer Policy and Mobilization at Consumer 
Reports; Ms. Ann Wilson, Senior Vice President at the Motor and 
Equipment Manufacturers Association; and Mr. Gary Shapiro, 
President and CEO at the Consumer Technology Association.
    We do appreciate you all being here today. Mr. Bainwol, why 
don't we begin with you? You are recognized for 5 minutes for 
an opening statement, please.

  STATEMENTS OF MITCH BAINWOL, PRESIDENT AND CEO, ALLIANCE OF 
  AUTOMOBILE MANUFACTURERS; KIRK STEUDLE, DIRECTOR, MICHIGAN 
 DEPARTMENT OF TRANSPORTATION; LAURA MACCLEERY, VICE PRESIDENT 
  OF CONSUMER POLICY AND MOBILIZATION, CONSUMER REPORTS; ANN 
      WILSON, SENIOR VICE PRESIDENT, MOTOR AND EQUIPMENT 
MANUFACTURERS ASSOCIATION; AND GARY SHAPIRO, PRESIDENT AND CEO, 
                CONSUMER TECHNOLOGY ASSOCIATION

                   STATEMENT OF MITCH BAINWOL

    Mr. Bainwol. Thank you, Chairman Burgess, Ranking Member 
Schakowsky, and members of the subcommittee, thanks for having 
me back to testify today on behalf of 12 iconic automakers, who 
are engaged in a massive exercise in self-disruption.
    I spent 8 years in the music industry as a digitization of 
the music wrecked business model and devastated property 
rights. There was little that industry could do. Autos are in a 
very different spot, we are manufacturers and technology 
companies and mobility providers and we are innovating rapidly.
    Three converging trends are driving dynamic change. The 
first trend is the rapid emergence of crash avoidance 
technologies that will culminate in self-driving cars.
    The second trend is the evolution of ride and car-sharing 
starting with Uber, Lyft, Car2Go, and others, but swiftly 
moving to a wide range of other models. Sharing will reduce 
ownership rates to some degree but also shorten fleet age.
    And the third trend is the gradual evolution in power 
trains toward electrification that, in the present low gas cost 
context, is being driven more by policy mandates than by 
consumer demand.
    Combined, these trends are changing mobility profoundly and 
as mobility changes, the overriding goal of my members share is 
to ensure that consumers are able to afford these vehicles that 
offer a higher efficiency and enhanced safety features. The 
faster we can safely and affordably move to the future, the 
better.
    While the introduction of self-driving cars is just around 
the corner, the transition of full autonomy will take two 
generations. Moody's predicts these cars will not be a majority 
of the fleet until 2045 or ubiquitous until 2055.
    But the important fact is that benefits already are 
materializing. First, safety: 99 percent of road fatalities are 
the result of behavioral issues, environmental circumstances, 
and infrastructure limitations, rather than car defects. 
Technology addresses many of these challenges by helping to 
avoid crashes altogether. Elon Musk says that moving too slowly 
will kill people. I might say it less provocatively and Tesla 
is not a member but he has a point. We need to lean forward.
    Second, technology can reduce carbon and strengthen the 
environment both by mitigating congestion and by facilitating 
more efficient use of the automobile.
    Third, technology can enhance access for the young, the 
old, the disabled, and the economically disadvantaged.
    Fourth, individuals and businesses will benefit from time 
savings and meaningful productivity gains, helping society and 
the economy.
    Fifth, the combination of lower per mile cost and higher 
cost utilization rates resulting from ride-sharing has the 
potential to reshape mass transit. For all of these reasons, 
most stakeholders believe accelerated deployment is highly 
desirable subject to ensuring a material net safety gain. But 
we also know that the traditional regulatory mechanisms can't 
handle the space of innovation.
    Administrator Rosekind and Secretary Foxx put their fingers 
on this problem and deserve considerable credit for seeking a 
new approach, facilitating the proper mix of oversight and 
regulatory flexibility. It is not an easy puzzle and we 
understand that committee members will have different visions 
about what it means to be nimble and flexible while also 
offering predictability and stable roles.
    We are carefully examining NHTSA's guidance and will 
formally respond a week from today at the deadline. That 
response will be shared with that committee. And we fully 
expect the Trump administration to put a stamp on this policy. 
Congress ought to as well.
    The feds have traditionally regulated the car, the states, 
the driver. With autonomy, the car is the driver and that, in 
essence, creates static between the Federal and state 
obligations.
    Perhaps the key objective behind NHTSA's recommendation was 
to provide federal leadership to avoid a patchwork of state 
rules. Yet, the early evidence is it still might be necessary 
to further strengthen the federal leadership. Some even have 
suggested that a state-level time out might be warranted.
    A second key objective was to reduce federal regulatory 
rigidity and ambiguity. Some of the rigidity has been addressed 
with commitments to timely respond to requests for 
interpretations and exemptions but too much ambiguity remains. 
Policy often seems simple but when it gets to execution and 
compliance, that simplicity morphs into numbing complexity and 
complexity equals delay, higher costs and delayed social 
benefits.
    Finally, another key objective was to provide mechanisms to 
better share data and learning to class both OEMs and tech 
providers. It is a prudent goal. We are not certain, however, 
that all contemplated obligations are feasible and productive.
    Summing up, we appreciate this committee's initiative to 
help accelerate the smart introduction of these lifesaving 
carbon-reducing, economy-enhancing technologies. This is 
guidance, voluntary for now at the federal level and mandatory, 
effectively at the state level triggers this conversation. We 
welcome it because the stakes are high and the opportunity is 
enormous. Government must pave the way for technology 
deployment and must not, despite good intent, become an 
obstacle to realize in the brighter future of mobility.
    I look forward to answering your questions.
    [The prepared statement of Mr. Bainwol follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    
    Mr. Burgess. The chair thanks the gentleman. Mr. Steudle is 
recognized for 5 minutes, please, for an opening statement.

                   STATEMENT OF KIRK STEUDLE

    Mr. Steudle. Thank you, Mr. Chairman and members of the 
committee. It is an opportunity to sit in front of you. I 
appreciate that opportunity to talk about something that is 
truly revolutionary in the transportation industry, that is, 
connected and autonomous and automated vehicles.
    At the Michigan Department of Transportation, safety is 
paramount. It defines everything the department does, from road 
and bridge design, to managing worksites, to overseeing the 
work of contractors. Some 35,000 people have died on America's 
roads, as many of you have noted. In Michigan, that number was 
963 last year. Today, it is 921. That is highest in the last 
couple of years. That is the equivalent of 350 airline crashes 
with 100 passengers. Imagine what the outcry would be if that 
was happening.
    As has been said, 90 percent of the traffic deaths could be 
reduced with this technology and I think for that alone is the 
reason we should be pursuing this at a very advanced pace.
    The exponential advent of technology shows no sign of 
slowing down. The technology both enables and demands 
multitasking. Despite the ever-evolving laws and prolific 
safety messages, distracted driving continues to cause more 
crashes and more injuries and deaths as a result of those 
crashes. Automakers have made tremendous strides in building 
safer vehicles, seatbelts, air bags, antilock brakes, lane 
control systems, adaptive cruise control, advanced braking 
systems, and the like.
    But even while the technology and research continues to 
save lives, the discovery of new distractions offset the gain. 
Today, more than 68 percent of U.S. adults have a smart phone. 
That is up from 35 percent just 5 years ago and the use of 
electronic devices is just one of the categories in a growing 
list of driver distractions.
    But I am not here to preach about driving distractions. If 
we refuse to accept the increasing number of our friends and 
loved ones that needlessly die in automobile accidents, we need 
to look for a solution and the solution is automated vehicles, 
a vehicle that removes the driver and the driver error.
    While safety is the overriding imperative, there are other 
vital benefits to automated or driverless cars. Chief among 
them are the extension of the freedom that comes with personal 
mobility and personal mobility in our golden years. If any of 
you have had the misopportune or the unfortunate opportunity of 
being in a position to take the keys away from your parent or 
an elderly resident, you know how painful that can be. My state 
has one of the oldest populations in the country. According to 
the 2010 census, 14 percent of the residents were over the age 
of 65. Driverless cars offer us the opportunity to grant all 
this precious autonomy to our full range of residents, not just 
those between the ages of 16 and 80 or 85 or 90.
    They also have the ability to fundamentally change the way 
that people and goods move. Ride sharing is already having an 
impact on urban life, as more people choose that option, 
freeing up their time and their disposable income. This 
presents many questions about the future land use, parking, 
consumption of fossil fuels, the evolution of public transit 
and many others.
    I should emphasize some key things going on back in the 
state of Michigan. With overwhelming bipartisan support, the 
legislature last week adopted and sent to Governor Snyder a 
package of bills that will keep Michigan at the forefront of 
these developments. Chiefly, the bills do these things: they 
allow for complete autonomous operations on any road at any 
time, without a special license; they allow for truck 
platooning; they allow for on-demand automated networks, which 
are driverless Ubers, driverless Lyfts; and it creates a 
council on future mobility made up of industry participants 
from a broad range.
    As for NHTSA, I think the agency has done a good job of 
identifying and distinguishing between the state and the 
Federal regulatory roles related to automated vehicles. States 
would regulate the driver or the operator. Those regulators 
currently vary by state, much like graduated drivers' licenses 
and the effects of penalties for impaired drivers. The Federal 
government has a long history of vehicle regulations for the 
OEMs, the original equipment manufacturers, and that should 
continue. But Michigan strongly disagrees with the proposed 
third-party certification process that would create a middle 
man, which would slow progress and the adoption of lifesaving 
innovations. It also would introduce a third party into the 
liability equations.
    This technology is best tested and validated by those that 
have developed it and understand the technology. They should be 
responsible for what they include in the vehicles and not get 
rid of that responsibility by hiding behind a third-party 
tester.
    Thank you for the opportunity to testify on this important 
topic. I applaud you for taking up this and I look forward to 
your questions.
    [The prepared statement of Mr. Steudle follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
   
   
    
    Mr. Burgess. The chair thanks the gentleman. Ms. MacCleery, 
you are recognized for 5 minutes for an opening statement, 
please.

                  STATEMENT OF LAURA MACCLEERY

    Ms. MacCleery. Thank you. Good morning, Chairman Burgess, 
Ranking Member Schakowsky, and members of the subcommittee.
    My name is Laura MacCleery and I work for Consumer Reports, 
an independent nonprofit that works side-by-side with consumers 
to create a fairer, safer, and healthier world.
    I want to start by thanking Ranking Member Schakowsky in 
honoring the late Clarence Ditlow. As both a former board 
member of Consumer Reports and leader of the Center for Auto 
Safety, my friend and colleague, Clarence, made immeasurable 
contributions to vehicle safety and was responsible for 
countless lifesaving recalls. His dogged persistence was 
legendary. His accomplishments spanned decades.
    At Consumer Reports, we consider it a privilege to carry 
forward his and our shared dedication to safer cars.
    As we have heard, traffic deaths on U.S. roads are 
increasing, reversing a long-standing decline. We urgently must 
find ways to both prevent and reduce traffic deaths and 
injuries. It is critical to note at the outset that 
improvements to crashworthiness that would allow people to 
better survive crashes remain far from exhausted. For example, 
although the Research Safety Vehicle designed by NHTSA in the 
last 1970s was crash-safe at 50 miles per hour, today the 
minimum safety standard for frontal impact is only 30 miles per 
hour with 35 miles per hour testing in the new car assessment 
program. This occupant protection standard is one of several 
NHTSA performance standards that are badly out of date and 
should be upgraded.
    If we know anything, it is that technology is imperfect. 
Making vehicles safer when they do crash should go hand-in-hand 
with making them smarter.
    We certainly recognize the potential for crash avoidance 
technologies to also reduce traffic deaths. Consumer Reports 
Auto Testing Team has driven thousands of miles in cars that 
can steer within a lane and adjust speed automatically using 
increasingly prevalent technologies like automatic emergency 
braking and lane-keeping assist. We also have seen that these 
technologies are not perfect and vary in quality among 
manufacturers and that some raise novel risks. What we hear 
again and again in this context about safety gains is we are 
saying clearly that the safety benefit of fully self-driving 
vehicles are simply, at this point, not known.
    There are real limits to current technologies. There is a 
handoff problem in communications with consumers and letting 
them know when they need to take over vehicle functioning. 
There is issues with user interface and with software updates 
that may or may not be clear to consumers who are using their 
vehicles. And there are profound and fully knotty ethical 
implications of algorithms.
    A reality check is provided by our testing, which shows 
performance issues with current technologies in sunny, rainy, 
snowy, or icy conditions. That is a lot of weather to challenge 
these systems.
    As this suggests, there is much work that needs to be done 
before cars drive themselves. Automated driving technologies 
cannot and should not be oversold, particularly when consumers 
still must be prepared to take over the controls. Failing to 
appropriately communicate the limits or design systems with 
appropriate checks on foreseeable use and misuse of systems can 
give consumers a false sense of security and even cost lives. 
As more vehicles with automated driving technologies hit the 
market, we will carefully evaluate them and report to consumers 
on their safety. For its part, NHTSA should ensure that 
companies put consumers first by collecting and publishing data 
and what has collected sufficient evidence by setting robust 
safety standards.
    The agency has indicated the Federal Automated Vehicles 
Policy guidance is an initial regulatory framework. It covers a 
wide range of subjects but we think it is light on specific 
choices that companies should make to assure safety. We urge 
lawmakers to take three key steps. First, to recognize that 
NHTSA remains chronically under-resourced. To improve and 
ensure consumer trust in automated vehicles, the agency must 
receive its requested funding so it can independently and 
thoroughly assess the safety of these systems.
    Members should also recognize a few fundamental steps 
needed to assure effective oversight of automated driving. Here 
are three: We call on companies first to give their safety data 
to NHTSA and the public. Dr. Rosekind indicated that the data 
would show what is best. That makes sense but right now, the 
safety benefits of autonomous driving are speculative and based 
on data held entirely by the companies. Regulators and 
consumers both deserve to know the basis the companies use to 
determine that an automated technology is safe, particularly if 
they are making claims that this technology performs more 
safely than human drivers.
    Second, NHTSA's enforcement capability should be 
strengthened. NHTSA has the authority to deem automated system 
risks to be safety-related defects but its practical ability to 
get unsafe cars off the road quickly has long been limited and 
is challenged in a world of instant software updates. Congress 
should give the agency imminent hazard authority so that it can 
take immediate action.
    Third, NHTSA and other relevant agencies must take a hard 
look at the risks of a lack of cybersecurity in vehicles. The 
recent Dyn attack raises the question of what must be done to 
safeguard consumers and this issue can't wait.
    NHTSA has repeatedly requested imminent hazard authority, I 
will note, and it is part of Ranking Member Schakowsky's 
Vehicle Safety Improvement Act, which we support.
    In conclusion, automated innovation is essential. It has 
included features with major benefits to consumer safety, such 
as automatic emergency braking. But our ambitions in this area 
must be balanced with accountability and a full view of how 
humans interact with this technology. Building public trust is 
critical. Public data, vigorous agency oversight, and attention 
to a total-vehicle and consumer-first approach will be needed 
to ensure that safety keeps pace with technological change.
    [The prepared statement of Ms. MacCleery follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Burgess. The chair thanks the gentlelady. Ms. Wilson, 
you are recognized for 5 minutes, please, for an opening 
statement.

                    STATEMENT OF ANN WILSON

    Ms. Wilson. Chairman Burgess, Ranking Member Schakowsky, 
members of the subcommittee, my name is Ann Wilson and I serve 
as the Senior Vice President of Government Affairs for the 
Motor and Equipment Manufacturers Association or MEMA.
    Thank you for the invitation to testify before you today on 
automated vehicles and NHTSA's Automated Vehicle Policy.
    MEMA is the leading international trade association of the 
fast-changing mobility industry. By directly employing more 
than 800,000 Americans and generating a total employment impact 
of 4.2 million jobs, MEMA member companies are the largest 
employer of manufacturing jobs in the U.S.
    MEMA applauds NHTSA for developing the Federal Automated 
Vehicle Policy. Given the rapidly evolving advances in vehicle 
technologies, we believe this policy, as opposed to 
regulations, that clarifies a national framework with a clear 
role for the states sets pathways for all stakeholders to 
navigate the complexities of automated vehicle technologies.
    We are currently working with our members to provide NHTSA 
with specific comments by November 22nd and we will provide 
those comments to the subcommittee.
    We are also committed to a continuous dialogue with NHTSA 
on the AV policy. However, we urge NHTSA to clarify the policy 
in the near-term with the input received from the public 
listening sessions and the written comments.
    Today, I wanted to lay out a few challenges and 
opportunities MEMA has already identified. First, MEMA would 
strongly urge the agency to treat test vehicles covered by the 
AV policy separately from production vehicles. Typically, these 
vehicles are company-owned and operated only by trained 
employees and are not intended for production and sale to the 
general public. For instance, it is not clear in the policy 
whether NHTSA intends component manufacturers or other entities 
should apply for exemptions for test vehicles in order to test 
and evaluate Level 2 through 5 systems on public roads.
    With the rapid evolution of these technologies, time is 
critical. The process outlined in the AV policy for test 
vehicles, including the exemption process, would delay 
innovation.
    We also have some serious concerns about the protection of 
manufacturers' intellectual property rights during the testing 
phase.
    We are also seeking an additional clarification with 
respect to test vehicles. Under Section 24404 of the recently 
enacted FAST Act, OEMs can test and operate vehicles that do 
not meet Federal Motor Vehicle Safety Standards, provided they 
are not offered for sale. But this provision does not include 
component manufacturers and we would urge the committee to 
clarify this provision at the first opportunity.
    Second, in 2015, MEMA and the Boston Consulting Group 
released a report examining the safety benefits of Advanced 
Driver Assistance Systems or ADAS technologies. The study found 
that these technologies can provide immediate safety benefits 
and formed a pathway, as you have heard, to a partially and 
fully automated vehicle fleet that could virtually eliminate 
traffic fatalities. But it is important to note that some of 
these ADAS technologies constitute the SAE Level 2 automated 
systems. These include technologies, as you have heard today, 
like AEB, adaptive cruise control, and others. Technology is 
currently available on a wide range of vehicles. MEMA urges 
NHTSA to further delineate the impact that the AV Policy has on 
Level 2 technologies.
    Third, as previously recognized, NHTSA's AV Policy also 
applies to all vehicles. While much of the testimony you have 
heard today is directed towards the automotive industry, many 
of the opportunities and challenges apply to both passenger and 
commercial vehicles. The commercial vehicle component supplier 
members of MEMA are particularly concerned about the IP 
protection as safety systems and other new technologies are key 
differentiators for trucking fleets. There are many other 
parties in the commercial market who must be engaged in the 
development and implementation of AV Policy for all the 
challenges and benefits to be fully explored. We encourage 
NHTSA to continue interacting with those parties and we would 
encourage this committee to work with them, too.
    Fourth, original equipment component suppliers do not 
always have complete visibility into the full scope of issues 
to properly assess performance. Once a component or a system 
has been integrated into a protection vehicle, it is important 
that all stakeholders have a clear understanding of NHTSA's 
expectations of the roles and responsibilities, particularly 
for OEMs and component manufacturers. These distinctions should 
be clarified and articulated in the context of the policy.
    And finally, MEMA encourages NHTSA to take the lead with 
their global counterparts to cooperate in developing an AV 
policy beyond the U.S. for the benefit of the global community. 
The earlier we get ahead of opportunities to align, the better 
it will be for all stakeholders, government, industry, and the 
driving public.
    In conclusion, the members of MEMA are committed to vehicle 
safety and are at the forefront of developing additional 
lifesaving technologies.
    We appreciate this opportunity to testify and I would be 
happy to answer your questions.
    [The prepared statement of Ms. Wilson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    Mr. Burgess. The chair thanks the gentlelady.
    Mr. Shapiro, you are recognized for 5 minutes for an 
opening statement, please.

                   STATEMENT OF GARY SHAPIRO

    Mr. Shapiro. I am Gary Shapiro, President and CEO of the 
Consumer Technology Association. I just want to thank you, Mr. 
Chairman Burgess and Ranking Member Schakowsky, and members of 
the subcommittee as well for inviting me to testify on this 
important issue.
    I also want to thank you for hosting these Disrupter 
Series. This is really important. You have brought attention to 
new technologies like 3D printing and drones, which are 
fundamentally changing the world. Actually, at CTA we created a 
Disruptive Innovation Council last year and it supports those 
companies that are developing technologies and services that 
are disrupting traditional business models, actually creating 
new markets, and, frankly, delighting consumers. So, this is a 
good thing. That is what this country was based on is positive 
disruption.
    And that is what we are talking about here. We actually 
represent over 2,200 American consumer technology companies. We 
own and produce the CES. It is the world's largest business, 
coolest, funnest event. You are all invited to attend. If you 
come to Las Vegas next January you will see literally 3,900 
companies, including 300 of them that are focused on connected 
vehicles, driverless cars. Most of the major auto companies are 
there as well. And you will see the future right there in one 
place.
    We also, as an association, represent much of the vehicle 
technology ecosystem. Our member companies are fundamentally 
revolutionizing the transportation network and are well on 
their way to making self-driving vehicles a reality.
    This comes about because the internet, wireless, and 
sensing technology are poised to revolutionize the auto sector, 
as they have other industry sectors. While these changes 
disrupt all business models, they lead to economic growth, a 
better standard of living, improved health and safety, and new 
opportunities to expand entrepreneurship, provide American 
leadership and solve real-world major problems.
    You have heard over and over today about self-driving cars 
that will save over 30,000 lives a year and prevent hundreds of 
thousands of injuries. They will also free up our time, enhance 
the travel business so more Americans will use cars to travel 
further and see America and actually change our view of cars so 
they will be a service, rather than a product.
    So, I think what we should do is set a goal of cutting 
American road fatalities by a certain date and challenge 
interested groups to gather and forge a path forward to solve 
the many legal, legislative and standardization uncertainties 
to achieve that outcome.
    One question that has already come up today and people are 
asking is whether this technology must be perfect before it 
deployed. Perfection may be an unreachable goal but any 
significant improvement over the status quo of 35,000 annual 
deaths should be welcome. In fact, though, as you have hard, 
driver assist technology is already saving lives, avoiding 
accidents, and paving the way for driverless innovations. We 
welcome and need technologies that help drowsy or inattentive 
drivers stay focused or provide specific responses, such as 
automatic braking and lane drift avoidance, all of which are 
available in newer models today.
    Further, the aftermarket industry does provide a valuable 
service in allowing consumers to add lifesaving technology to 
vehicles they already own and that is important because if we 
wait for the whole fleet to turn over, we are waiting 20 or 30 
years to save those thousands of lives of each year.
    Our research we have done with consumers confirms there is 
strong interest in the early stages of self-driving technology. 
We did a recent study with 2,000 consumers and three in four 
are excited about the benefits of self-driving cars. More than 
60 percent are interested in replacing the car or truck they 
own with a completely self-driving vehicle.
    Of course, you have heard, transportation is a national 
system. We need uniformity to ensure a national single market, 
promote safety, and provide consistency.
    CTA was encouraged by NHTSA's Federal Automated Vehicles 
Policy and its recognition of the need for self-driving 
vehicles. More, NHTSA recognized the importance of flexibility 
for the industry to continue to innovate with appropriate 
supervision at the state and Federal level. We appreciate the 
leadership, however, we do have several concerns with the 
policy, which we will be filing formal comments on.
    While DOT is a primary regulator for self-driving vehicles, 
other agencies also have a role. Representatives from the NTIA, 
the FCC, FDC, DoD, and others have asked how they can provide 
input for their needs, contribute their expertise on spectrum, 
interoperability, cybersecurity, and privacy, and simply stay 
informed.
    And I applaud the DOT for taking a leadership role and 
seeking broad input but consensus, national consensus on self-
driving vehicles is so important that we need all the believers 
and the stakeholders together working towards a national goal 
of saving lives and resolving impediments to get there. This 
action requires government facilitation and leadership at the 
very top. We did this, and I was personally involved with our 
shift to high-definition television, and also did it as we 
created commercial rules for the internet. The U.S. led the 
world in both those endeavors because we had industry together, 
all the interested parties working with government. The result 
for both has been huge boots in U.S. leadership in content 
creation and commercial internet ventures.
    Self-driving vehicles would be our gift to future 
generations. They will result in fewer deaths and injuries, a 
cleaner environment, more freedom and greater mobility. If 
industry and government work together on a shared national 
goal, we can remove every impediment and stop the carnage on 
American roads.
    [The statement of Mr. Shapiro follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    
    Mr. Burgess. The chair thanks the gentleman. And I thank 
all of our witnesses for their testimony today.
    We will move into the question portion of the hearing and I 
actually would like to go to the gentleman from Kentucky first 
for his questions.
    Mr. Guthrie. Thank you, Mr. Chairman. I appreciate you 
yielding.
    First, Mr. Bainwol, how soon can we expect self-driving 
cars on the road and what are the main obstacles facing the 
automakers to get self-driving cars on the road faster?
    Mr. Bainwol. So, that is the big question. I have hear Dr. 
Rosekind respond and he ducked it pretty well and I will try 
not to.
    So, most of our members have talked about self-driving cars 
being on the road in the 2020, 2021 time frame but that is not 
going to be anytime anyplace. That is going to be either 
geofenced or a certain set of conditions.
    So, it is around the corner. But as I indicated in my 
prepared testimony, the deployment is going to take two 
generations. Moody's says 2055 before it is ubiquitous, 2045, 
30 years from now, before it is the majority of the fleet. And 
the fleet mix issue is absolutely huge.
    Mr. Guthrie. OK, thank you.
    And Ms. Wilson, what is the difference between the driver 
assisted systems and active safety features that we are seeing 
on the market today in self-driving cars? And how are those 
systems preparing consumers for the future of fully automated 
cars?
    Ms. Wilson. So, the driver assisted systems that you see 
right now can take over a function. For instance, AEB will take 
over a function but doesn't take over control of the vehicle. 
So, as you look what the SAE and what is set as the stages of 
automation, this is, I won't way the first stage, but it is the 
first stages of automation.
    And I think what you are seeing when they discuss this both 
at NHTSA and SAE is they know that this is going to be a 
gradual piece. I mean as Gary was mentioning, Mr. Shapiro was 
mentioning about the aftermarket, the aftermarket can provide 
valuable warning devices to a consumer. So, if you have a car 
that is a little older, it can warn you, maybe not take over 
control of the vehicle, but warn you of a safety hazards and 
things like that.
    So, again, those levels of automation are very important 
and we will see this gradually increase over years.
    Mr. Guthrie. Thanks. I was just visiting my daughter in 
Chicago and I have a little older car. And I had to, which we 
don't do in Kentucky too often, parallel park. And you are not 
in practice and then I was with a friend of mine who has a 
substantially nicer, more expensive car than I have that 
actually could guide him right in, parallel park. It got him 
right in. So, it was interesting.
    Ms. Wilson. We have some members who would love to show you 
that technology.
    Mr. Guthrie. Well, I learned that I need it because we 
don't do that. I don't do that actually hardly ever back home.
    So, Mr. Shapiro, what kind of disruption do you think self-
driving cars will have on jobs? I know that you have talked 
about it is going to increase economic opportunity but just 
anytime there is, I guess you could say the tractor cost jobs. 
That is what the Grapes of Wrath is really about. But it also 
created productivity but it did displace people.
    So, how should we be preparing for that disruption?
    Mr. Shapiro. It is a great question. I think it will have 
an equivalent of what the car did to those who rode horses, 
basically. It will be big because you are not only talking 
about professional drivers, you are talking about also 
collision repair people, aftermarket parts people, collision 
repair shops, the insurance industry will dramatically be 
affected. But what consumers will get in return, obviously, is 
lower insurance prices and they will have fewer fatalities. The 
hospital rooms, there will be less people in emergency rooms. 
It will affect emergency room doctors. And it will be very 
disruptive. There is no question about that. And that is a very 
critical issue and I think we have to start talking about it.
    So, what happens in any segment of society? What happened 
to telephone operators? What happened to travel agents? What 
happened to all these things as we go to new jobs? And that is 
what this election may have been about. And I think we have an 
obligation, those in business and those in government to figure 
it out. And part of figuring it out is what are the jobs for 
the next century.
    Now, we advocate, look, already today there is about 60,000 
or 70,000 truck driver jobs that are open. They are not even 
being filled. So, we need truck drivers but that will shift 
over time. We have an aging population. We need people to take 
care of them. We don't have enough people.
    We need programmers. We need STEM graduates. We need people 
that have technical skills. We need in this country to get 
people to get community college training and raise that so that 
not everyone has to go to a college.
    I could spend a lot of time talking about the future of 
jobs and we will be talking about it next year in 2017 at CTA 
because it is important and I think we have to focus on it as a 
country and as a society.
    Mr. Guthrie. My family is in the automotive supply 
business. So, we deal with some of the companies that are 
trying to develop the technology. And I didn't have a chance to 
go to the demonstration earlier but they say, the engineers are 
talking about the biggest problem is that if everybody follows 
the rules, this works but if you get into those situations 
where it is traffic and you have got to like force yourself 
into, merge. Like you know you waive to somebody and they back 
up and they let you in, he said those are the things that they 
haven't--it really is driver using like the way--you know how 
we all do that. Yes, can you come on in. And they said that is 
where they are really struggling to try to figure out how to 
get around those kind of situations.
    Mr. Shapiro. That is an addressable situation, increasingly 
addressable, especially with aftermarket products. It is a 
matter of what algorithms you create and how your car responds 
to other people who may not be following the rules. It is a 
solvable problem but it takes everyone getting together to talk 
about how to solve it.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman. The chair recognizes the gentlelady from 
Illinois, Ms. Schakowsky, 5 minutes for your questions, please.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Ms. MacCleery, I was interested in your testimony. You said 
that in the late '70s crash safety was considered at 50 miles 
an hour and today the minimum safety standard for frontal 
impact you said is 30 miles an hour with a 35 mile an hour test 
for new car assessment program. How did that happen and why?
    Ms. MacCleery. Yes, there was a challenge made to the 
engineering community by the National Highway Traffic Safety 
Administration under President Carter. And he went out and he 
said basically let the engineers solve this problem. So, they 
designed the research safety vehicle and it had a number of 
really interesting innovations, including a kind of plastic 
styrofoam that was inside the vehicle's structure so that it 
would be very crash absorbing and it made the vehicle crash 
safe at 50 miles an hour.
    And really, that is a high water mark that has not----
    Ms. Schakowsky. Well, how did it get reduced? Why would it 
get reduced as the standard?
    Ms. MacCleery. Well, it wasn't the standard. It was a test 
vehicle----
    Ms. Schakowsky. Right.
    Ms. MacCleery [continuing]. A prototype----
    Ms. Schakowsky. Right.
    Ms. MacCleery [continuing]. That demonstrated what would be 
possible from a vehicle design and engineering perspective.
    Ms. Schakowsky. And did that ever get implemented in the 
actual manufacturing?
    Ms. MacCleery. No.
    Ms. Schakowsky. No. Oh, OK.
    Ms. MacCleery. The vehicles were mostly destroyed under the 
Reagan administration. There were two that were recently 
discovered and were brought to NHTSA for study.
    Ms. Schakowsky. Let me ask this, then. Does a 30 or 35 mile 
an hour standard make sense today that that is what we test 
for? Should we be looking at something more significant?
    Ms. MacCleery. Yes, there are a lot of complexities to 
raising occupant safety standards, including dealing with 
smaller statured individuals and how aggressive air bags would 
be. So, you have to factor in the whole vehicle approach. But 
if you can build the crash worthiness into the vehicle 
structure, the way that air bags do, it helps all occupants. 
And that is what the design of the research safety vehicle 
demonstrated was possible.
    Ms. Schakowsky. Now, clearly, we are talking about these 
new technologies and the cars driving themselves but you also 
mentioned that consumers would be far more likely to entrust 
their lives to crash safe vehicles and these improvements 
should be viewed as a necessary corollary to automated crash 
avoidance systems. Are we doing enough in that regard or has 
our focus shifted to the automobiles themselves being able to 
take care of it? Should we be continuing to emphasize and are 
we doing that enough, the crash safety methods?
    Ms. MacCleery. I don't think we are. NHTSA has a number of 
standards that are badly out of date and have not come pace 
with where vehicles are performing today. And we should be 
upgrading the safety standards. As we have heard, a mixed fleet 
is what we are going to be dealing with for the foreseeable 
future.
    Ms. Schakowsky. Right.
    Ms. MacCleery. And so, saving lives in the interim is 
really a priority.
    Ms. Schakowsky. OK. You know, Mr. Shapiro, you were talking 
about the Consumer Electronics Show that you have every year. 
And I am just wondering. There is both the convergence of 
driver reliance on semi-autonomous features but also the 
increased use of smart phones, and apps, and infotainment 
options in cars. And I am just wondering if there is some 
conflict here for distraction of drivers. At the same time, we 
are talking about more autonomy for the cars themselves, we are 
also providing more distractions, especially in this transition 
period.
    Is there a conflict there? And how do we resolve that?
    Mr. Shapiro. Well, we resolve anything like that by getting 
to self-driving cars with more and more features towards self-
drive as soon as possible because they do save lives.
    I don't think you are going to be able to change the fact 
that--why did we go up from 30,000 to 35,000 deaths last year? 
And we keep asking ourselves. Well, cheap gas, more miles 
clearly added but there are others. There are more distractions 
and it is not only using devices. It is that there is people 
drinking coffee. And people are tired. They fall asleep a lot. 
They drink a lot.
    Ms. Schakowsky. Yes, but they always did that.
    Mr. Shapiro. But they are still doing it and I think we are 
all more tired now for some reason.
    Ms. Schakowsky. Yes, well.
    Mr. Shapiro. But the point is that it is going up. It is a 
bad trend. And the way to get out of it is, obviously, to do 
public education through strong laws on distracted driving but 
we have got to get to driverless cars and active collision 
avoidance and even, obviously, past collision.
    And we are getting there quickly. I already had an 
experience with an active collision avoidance where I was 
stopped hitting the car in front of me because the car took 
over. I think it is great. I think every American should have 
that and we should have it as soon as possible and we should 
also try to get it through the aftermarket. We can't wait 30 
years. That is about a million lives we will lose.
    Ms. Schakowsky. OK, I am just wondering, if I could, Mr. 
Chairman, ask Ms. MacCleery to comment on that.
    Ms. MacCleery. Well, we see an enormous variance among the 
effectiveness and consumer-facing features of various current 
performance technology. Some of them don't work under certain 
weather conditions. Others of them may not be to the consumer's 
liking in terms of how they are doing alerts.
    For example, in the Lane Assist technologies, we have done 
testing where you are trying to swerve to avoid a bicyclist or 
a pedestrian and the vehicle tries to correct that by pulling 
the steering wheel back out of your hand and keeping with the 
lane. That could, actually, cause a collision and it is 
unnerving from a driver's perspective to be steering into the 
object that you are trying to avoid.
    And so these technologies are in development. And some are 
better than others. They are not uniform. And that is why we 
think having the data sharing piece is so important because 
once the public and regulators can get access to the data about 
which systems work better than others, then you can see how to 
set the direction for the future of these technologies and 
which ones are really proving beneficial.
    Ms. Schakowsky. Thank you.
    If I could just ask Mr. Shapiro while all these 
technologies are developing, I hope you will develop one for 
hot cars notification of people who may leave a child in the 
back seat. We have all these bells and whistles now in our 
cars. Children die because they are left in those cars.
    Mr. Shapiro. There is something and I will follow-up with 
you and tell you what it is.
    Ms. Schakowsky. Thank you.
    Mr. Shapiro. And I might add to that example, I keep 
thinking of the fact that every one of us in this room has 
probably seen somebody and we have swerved away into a lane we 
didn't even know someone was there. And the technology that we 
are going to will avoid that risk we are taking, all of us are 
taking in one on.
    Ms. Schakowsky. Thanks all of you.
    Mr. Burgess. The chair thanks the gentlelady. The chair 
recognizes the gentleman from Oklahoma, Mr. Mullin, for 5 
minutes for questions, please.
    Mr. Mullin. Thank you, Mr. Chairman. Thank you to the panel 
for being here.
    Ms. MacCleery, I couldn't agree more that it does unnerve 
you a little bit when you are switching lanes, when you are in 
traffic and you have got to get over and you have to steer into 
it, which is why I absolutely cannot stand it on my wife's 
vehicle. But I get the need, too. Look, it is about safety, to 
Mister--is it Shapiro? I am so sorry. I get the safety part of 
it but I am from a very rural part of the country. In fact, 
just to get to my house, you have got to go four miles down a 
country road and that is off of a two-lane road that is the 
nearest four-lane highway is I don't know. It is a long way 
away. And we pull a lot of trailers. There are trailers behind 
a truck. If you are with me on a weekend, I have probably got a 
trailer behind me.
    How does this technology affect that? There are so many 
variances that go into place. I heard you talking about truck 
drivers. The way the trailer is handled behind a vehicle, the 
weight, it would depend on how they are loaded. It would depend 
on the bumper pull of if it has got a gooseneck on it. It would 
depend on if you are running cattle or if it is an RV. I mean 
it all changes and it all changes to feel the vehicle.
    How does an automated vehicle correct that and change that, 
not to mention you are going down dirt roads and country roads?
    Mr. Shapiro. Those are great points and those are the kinds 
of things which will be plugged into equations so the car will 
know what it is pulling. It will know its weights. It will know 
the reaction. It will know what kind of road it is on. It will 
know if you have been drinking or not, too, which is the point.
    Mr. Mullin. Drinking what?
    Mr. Shapiro. Well, the important part is that we have so 
many accidents today and so many people, there is drunk driving 
this obviously will have a big impact on and there is disabled 
Americans and older Americans that are waiting for this to 
happen.
    Mr. Mullin. No, I agree. Look, in my district, 12 percent 
of my population is over 70. To go get groceries, it is 
typically a 30-minute drive because it is 15 there and 15 back. 
That is on average. That is in my district, average.
    Mr. Shapiro. Well, we can also talk about drones to get 
some service to those people as well.
    Mr. Mullin. They would be shot down if they flew around our 
place.
    Mr. Shapiro. I am not winning with you, am I?
    Mr. Mullin. No.
    Mr. Shapiro. But the bottom line is is we will resolve 
these problems. And the way to resolve the problems is to 
identify them and discuss them and come to a consensus.
    And what we have now with computer technology and machine 
learning technology, it will learn as it goes along. There will 
be deep learning of the situation but it won't be perfect but 
it will be great.
    Mr. Mullin. But the more of it comes--and I get that. I am 
not against technology. Look, our company, we are always 
investing in technology. It is great. It is wonderful but it 
can become a distraction. You can't depend on a computer to 
understand when a horse falls in your trailer. You can't. You 
can't feel that. You are talking about the safety of the 
animal, at that point. And if you are not paying attention to 
it, it goes away.
    And I understand technology but I am not so sure that it is 
going to be a fix-all. In major metropolitan areas, OK, I get 
that. But if you put a mandate out there on it, you are going 
to take away the freedoms. You are going to take away the 
ability for the driver. You are going to take away the feel of 
the vehicle.
    My kids, my oldest one is 12 years old and we are literally 
already teaching him how to drive on a farm because in 
Oklahoma, at 14 you can get your driver's license to drive on a 
farm. And you are going to be driving a trailer. You have got 
to feel that. You have got to know what it feels like. And you 
can't, you are not going to get that through vehicles. I am 
going to have a hard time believing that a machine is going to 
be safer than me when I have got everything paying attention to 
it.
    Granted if I am drinking, which I don't, but I am just 
saying I get that. I understand that. But I am not so sure this 
is going to be perfect and I don't want to rush and put it out 
there. I think there is going to be areas to where it would be 
great.
    Mr. Shapiro. Well, you did use the word mandate and that is 
not a word I have used. I would imagine in a many of the 
vehicle manufacturers, especially those aimed at the rural area 
would have a switch that would allow you to turn it on and turn 
it off, or give you a warning if you are about to hit a tree, 
and maybe only take over if you are hitting a tree or a deer, 
or something like that.
    Mr. Mullin. That is what a brush guard is all about because 
those things jump in front of you.
    Mr. Shapiro. We are evolving on this. Pardon me?
    Mr. Mullin. I can't predict when a deer jumps in front me. 
That is what a big brush guard is for. You just hit them and go 
one, I guess. I don't know.
    Mr. Shapiro. Well, maybe the car can. Maybe the car can. 
And that is the advantage of this.
    So, I think we have to let it play out but set the goals. 
And the goals are reducing human injury and death, the 94 
percent of car accidents that are caused by human error.
    Mr. Mullin. No, I get that. Look, I have got five kids 
coming up, too. I mean my oldest one, like I said, is 12 and I 
know how bad of a driver I was when I was 16. And we can all 
say that.
    And so I want to be as safe as possible. I don't want 
anybody to lose their child. I don't want anybody to have to go 
through that but I want to make sure we are cautious moving 
forward.
    So, thank you to the panel for being here. I appreciate 
you.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman.
    The chair would observe that we have been joined by the 
Ranking Member of the full committee, Mr. Pallone, and I will 
be happy to go to him next to him for questions, 5 minutes, 
please.
    Mr. Pallone. Thank you, Mr. Chairman.
    Both the tech industry and the automotive industry have 
been working towards fully automated vehicles for years now but 
many consumers remain unaware of the technology and its 
potential to decrease fatalities, improve mobility for seniors 
and the disabled, and improve daily life for Americans.
    So, I wanted to ask Ms. MacCleery, there has been a lot of 
attention paid in Congress and in the media on autonomous cars. 
We have heard claims that these cars will be available for 
purchase soon but we have also heard that fully autonomous cars 
are decades away. What is the realistic time line for adoption 
and is this something consumers should be paying attention to 
now or is this decades away?
    Ms. MacCleery. So, we think that it is not probably decades 
away but it is really an unknown in terms of the exact time 
line when these vehicles could come on the road. And what we 
are most concerned about is that vehicles currently touted as 
self-driving are actually not there yet. And so that that is 
misleading to consumers who actually need to be able, and 
poised, and paying attention to take over the wheel at a 
moment's notice. We know that human beings have a hard time 
coming in and out of paying attention to situations. And so we 
think that that kind of overselling of the technology 
represents a particular hazard.
    Mr. Pallone. All right, thanks.
    It is my understanding that because of the interest in 
ensuring that components of autonomous vehicles are safe from 
cyber intrusion, some have expressed concern about retrofitting 
exiting vehicles with the technology.
    So, let me ask you, does aftermarket autonomous technology 
present cybersecurity risks and are there unique safety risks 
associated with aftermarket autonomous technology?
    And I guess I will ask the third question. Is there a path 
forward for aftermarket autonomous technology or will consumers 
eventually be required to purchase a new vehicle to get the 
benefits?
    I will throw those all out. You can answer them together.
    Ms. MacCleery. On the cybersecurity question, I think we 
are very concerned. What we saw with the distributed denial of 
service attack just a few weeks ago was that there are lots of 
back doors and lots of products. And obviously, the prospect of 
having some sort of coordinated attack that would take over the 
wheel from American drivers is very concerning.
    We have a guidance that the National Highway Traffic Safety 
Administration just issued. We think that is a good first step 
but it really needs to be pushed forward quite aggressively so 
that we all have a better view of what are the vulnerabilities 
and how to fix them, both with current vehicles and the current 
technologies that are already on the road, as well as future 
and anticipated technologies in vehicles.
    In terms of aftermarket solutions, I think some of the same 
security concerns would apply. And so you would want them to be 
compliant with whatever that new standard on cybersecurity is 
that gets established.
    As to your third question, in terms of the future of 
autonomous vehicles and aftermarket solutions, we haven't 
really comprehensively evaluated these technologies at Consumer 
Reports. It is something that we are looking at. And so we 
really don't have a view yet, driver reviews based on evidence 
in the testing and we would need to conduct comprehensive 
testing of some of the aftermarket opportunities.
    Mr. Pallone. I had a third question but did you want to say 
something quickly?
    Mr. Shapiro. Yes, Administrator Rosekind testified on that 
very point and he said that the same risks you have with cars 
you would have with aftermarket as well. There is no additional 
risk that he is aware of.
    But I would say that even if there is an additional risk, I 
think you have to weigh that against the lives that will be 
saved. So, if we wait an additional 15 years so that the entire 
fleet turns over, as opposed to starting putting the products 
in in the next few years, then we have lost 15 years' worth of 
lives at the rate of up to 30,000 a year.
    Mr. Pallone. All right, thanks. Oh, I am sorry.
    Ms. Wilson. I was just wondering if I could. I represent 
component manufacturers, including aftermarket manufacturers. 
Our members are working very closely with the vehicle 
manufacturers right now on what is called a secure vehicle 
interface to try to look at things like this to see how we can 
provide this and provide the cybersecurity. We are hoping that 
an industry standard can be reached.
    And an SAE Committee has just recently been started and 
they are going to start to meet in December. So, we are very 
hopeful. There are a lot of challenges I think as the whole 
panel has indicated but the industry is really trying to work 
on this and get our arms around it.
    Mr. Pallone. All right, thanks. Let me get in a third 
question here.
    Semi-autonomous vehicles, which utilize technology such as 
automatic lane-keeping, speed adjustment, and automatic 
parallel parking are already making their way to market. So the 
question, again, to Ms. MacCleery, there is likely to be a lag 
time between semi-autonomous vehicles and fully autonomous 
vehicles hitting the market, in addition to traditional driver-
operated vehicles remaining on the road for some time. We can 
expect that, at some point, fully autonomous, semi-autonomous, 
and driver-operated cars will all be on public roads at the 
same time. So, can they exist safely on the road together and 
why?
    Ms. MacCleery. I think that is the heart of the question. 
We do have issues with social signaling, the kind of thing that 
was discussed a few minutes ago, with regard to drivers 
indicating to one another when they are going to enter a new 
lane and that sort of thing and there is real questions about 
whether fully autonomous vehicles can actually participate in 
that kind of social exchange on the roads and what happens to 
the technology if it can't read those signals.
    You know there is also issues with a mixed fleet of the 
unpredictable and of variances in the technology in terms of 
how well the various safety performance technologies do for 
consumers and how much safety benefit they provide.
    We are, obviously, very keen to see innovations that 
enhance safety. We have been huge fans of some of those 
technologies, including advanced emergency braking and have 
tested a variety of those systems and think that they do 
provide a real safety benefit, alongside other systems, like 
electronic stability control that have already been made part 
of regulations.
    So, we are eager for the National Highway Traffic Safety 
Administration to do sufficient data collection. They can 
actually compare the benefits of these systems and look at them 
together.
    Mr. Pallone. All right, thank you all. Thank you, Mr. 
Chairman.
    Mr. Burgess. The gentleman yields back. The chair thanks 
the gentleman.
    I do want to point out to the gentleman from New Jersey 
that I did not take my time for questions and allowed the 
members of the subcommittee to go first. So, now I am consuming 
5 minutes. I didn't want you to think that I was giving myself 
an additional time.
    But I do want to thank all of you. This has been a 
fascinating discussion. Now, tomorrow, we are going to have 
another joint subcommittee hearing with the telecom 
subcommittee on this very issue of the denial of service 
attacks, not so much as affect the automotive industry but it 
does raise a rather odd specter for being a cyber carjacking 
and someone actually being able to take over your vehicle. I 
don't know if you could actually access the Bitcoins from the 
dashboard or not but it is an interesting problem that when you 
think about it for the future and the ability to have security 
of the cybersecurity necessary in these vehicles is going to be 
critical.
    And I assume right down the line that you all are focused 
on that with both your manufacturing, aftermarket, and the 
consumer electronics. Is that a fair statement?
    Mr. Bainwol. Absolutely. As we have talked about before in 
the subcommittee, the manufacturers have established an ISAC 
that is up and running. We have issued best practices. And both 
the establishment of the ISAC and the best practices have been 
well-recognized by NHTSA as very positive steps forward.
    Mr. Burgess. Mr. Steudle.
    Mr. Steudle. Yes, actually with the State of Michigan we 
have opened up a cybersecurity range and we are working with 
the University of Michigan on that exact topic.
    Ms. MacCleery. We are very concerned about this. We have 
been looking at the issues in terms of the vulnerabilities. 
There was a well-known July 2015 hack of a Jeep, and Tesla and 
Mitsubishi vehicles have also recently been hacked. There was a 
news reporter who also allowed his vehicle to be hacked and 
lost control. And we are incredibly concerned that any vehicle 
connected to the internet is potentially vulnerable and that 
this is a sort of a late-arriving issue in terms of vehicle 
design that needs to be addressed forthwith.
    Ms. Wilson. So, our Tier 1 original equipment suppliers, 
many of them are in the Auto ISAC with their vehicle 
manufacturer customers. And in addition, on the commercial 
space, we are working with NHTSA right now and the team on the 
Auto ISAC to come up with a commercial vehicle model, something 
similar like that.
    And then, again, as we talked about before with the 
aftermarket, the aftermarket is trying to work on some industry 
solutions for some of these concerns. So, yes, sir, we are very 
involved in this.
    Mr. Burgess. Very well. Mr. Shapiro?
    Mr. Shapiro. In addition to the Auto ISAC effort and what 
NHTSA has done with best practices, we look at this more 
holistically as part of the internet of things because that is 
what this really is. And we have an effort ongoing internet of 
things to focus on and online self-assessment tools so that 
companies could figure out if they are using best practices and 
doing things correctly.
    Mr. Burgess. Very good. And Mr. Shapiro, you referenced and 
Ms. Schakowsky had a question about addressing a child left in 
a hot car. And it does seem that automobiles are getting so 
darn smart that they ought to be able to tell if there is a 
life form contained within and if the internal temperature is 
incompatible with that life form continuing and somehow let 
someone know--I live in a part of the country where it does 
extremely warm in the summertime and then these types of 
accidents, unfortunately, they are prominent when they do occur 
because it is a very prominent tragedy and if there is a way to 
prevent that, I would just add those children who are lost in a 
hot car or even a pet who is lost in a hot car as to those 
lives that could be saved that you alluded to at the beginning 
of your discussion.
    I was talking to Dr. Rosekind before he left and I remember 
when my children became of driving age. That was a long time 
ago, but like any cheap dad, I was thinking well, we will get 
them a whatever kind of heap I can go find in the aftermarket 
or the used car market. And I think it was another physician 
who pointed out to me that you know the kids just starting to 
drive is the one who needs to the antilock brakes. You have got 
them on your Thunderbird but you don't really need it because 
you are not going to be in the same situation.
    So, it is a paradigm shift for parents to think in terms of 
putting that lane departure warning or automatic braking, 
putting their first car that their child drives ought to have 
the protection of those things, in my opinion. And my thinking 
has shifted on that over the years. But those are the lives 
that I think could be saved.
    We had a tragic accident back in my hometown. Two mothers 
and two daughters were in opposite cars or cars driving in 
opposite directions and there was a distracted driving 
situation, it was assumed, but all four died. And this is in a 
town that already has a prohibition on texting while driving.
    So, the law is already there. We are looking now, the city 
is looking at is there some way we can beef up the law. Is 
there some way that enforcement can be increased? But it is a 
terrible, terrible problem and I like the idea of technology 
being able to prevent some of those accidents. So, I am very 
much in favor of what you are discussing.
    In your written testimony, you do have the paragraph of 
most concern is a proposal to grant NHTSA preapproval authority 
for new vehicles. That concerned me also when I read that, that 
it would be a major increase in authority for NHTSA by allowing 
NHTSA to approve every new model in every model year before it 
comes to market. That was a pretty startling statement that you 
made there but I assume that is a concern that you have from 
the consumer electronics area.
    Mr. Shapiro. Yes. So first of all, I do want to respond to 
the other things you said as well.
    The tragedy of the kid or the pet in the car, we should be 
able to solve that. I mean it is a tragedy and it is not like 
driving which sometimes things are unavoidable. We should be 
able to use technology to avoid that today. I know I have heard 
something about this in terms of technology that someone has 
proposed. I just don't know how mature or realistic it is but I 
will provide that to the committee.
    In terms of the distracted driving, what more you could do, 
I was just driving in Canada recently and there were signs 
everywhere and it made me really think about it. I think there 
are some things other countries are doing we should be looking 
at as well.
    But ultimately, we have to get driverless cars and 
collision avoidance quickly. And your point about kids being 
the first is a great one, something I had not considered until 
you said it but you are absolutely right. I guess we have to 
convince parents they have to give their kids new cars. That is 
an official policy.
    Mr. Burgess. I am sure the Automotive Alliance will.
    Mr. Bainwol. We like that idea.
    Mr. Burgess. And then did you have a comment about the 
preapproval?
    Mr. Shapiro. Oh, yes, I am sorry. That was really your 
final question.
    Yes, so NHTSA has done, their attitude, their work, their 
everything has been fantastic. They have the right attitude of 
pro-innovation, pro everything. However, there is a tradeoff 
between established car companies and companies that want to 
enter the marketplace. And the car companies also, they like to 
change things. They like to change it up. Everyone likes to 
have something new. We are innovators. We like to progress. And 
if you have to have everything preapproved, which NHTSA was 
suggesting, that would really slow things down, especially in 
the footnote that referred to the airplane model, which takes 
several years for approvals. And that was pretty terrifying for 
those of us with this rapid turnaround, rapid changes in 
technology. And you don't want to deny consumers new benefits.
    So, I don't think it is what NHTSA wants to do. I think 
they have done a fantastic thing it is just we want some areas 
clarified because of the ramifications and the barriers to 
entry, the barriers to innovation and new models.
    Mr. Burgess. I do want to mention that Tesla, BMW, and Audi 
had vehicles available for subcommittee members to look at this 
morning out on the street. Time constraints wouldn't permit me 
to look at all of them but I was struck in one of the cars. I 
won't mention the name but the size of the screen in the middle 
of the console was bigger than my television at home. And we 
are talking about distracted driving. That car has to drive 
itself because you are going to be watching whatever video is 
going, the GPS, and everything else. Really it was a startling 
technological development but I am sure it can be overwhelming 
for people who get behind the wheel, particularly a youngster 
who is not used to driving.
    So, anyway, do you have a follow-up question, Mr. Ranking 
Member?
    Well, thank you to our second panel. Seeing that there are 
no further members wishing to ask questions of this panel, I 
would thank all our witnesses for being here today.
    Before we conclude, I would like to include the following 
documents to be submitted for the record by unanimous consent: 
a letter from the Property Casualty Insurers Association of 
America, a letter from the Global Automakers.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. Pursuant to committee rules, I remind members 
they have 10 business days to submit additional questions for 
the record. I ask the witnesses to submit their response within 
10 days upon receipt of those questions.
    And we have one more letter from OTA to submit for by 
unanimous consent. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. We will insert it both today and tomorrow. How 
is that?
    Without objection, the subcommittee is adjourned. Thank you 
all.
    [Whereupon, at 12:47 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    Today our Disrupter Series continues as we examine self-
driving cars. Keeping Americans safe on the road has been a top 
priority for the committee. Being from the auto state, I know 
just how dedicated the auto industry and Michigan's premier 
research institutions are to developing a roadway system that 
is accident and defect free.
    This work is critical--especially when considering that 
traffic fatalities are on the rise for the first time in more 
than a decade. In Michigan, there were nearly 1,000 fatalities 
last year alone. And I am told that, nationwide, the fatality 
numbers are up again in the first half of this year.
    Today's hearing on self-driving cars gives us an 
opportunity to examine how the innovation in Michigan and 
across the country can literally save lives.
    The question is: how do we get there? How do we make sure 
that the software, maps, and sensors powering driverless cars 
are adequately researched and tested to guarantee that they're 
ready for deployment and safe for American drivers? How do we 
ensure that policymakers, at both the state and federal level, 
are prepared for and understand the capabilities of vehicle 
automation technologies? The most important thing is to make 
sure that government, at any level, doesn't hinder the 
development of this potentially game changing technology.
    NHTSA's recently-released policy guidance was a 
constructive first step in starting this conversation but also 
gives way to new questions. Back home in Michigan, an effort 
has already begun to address these issues. Michigan's proposed 
American Center for Mobility at Willow Run has the opportunity 
to offer policymakers and auto manufacturers across the nation, 
and around the world, a one-stop-shop for testing and 
certification for connected and automated vehicle technologies.
    Using over 330 acres of land, this proposed test facility 
accommodates a number of roadway and driving conditions that 
will be critical for development and deployment of autonomous 
car technology. With close proximity to Michigan's vehicle-to-
infrastructure corridor, University of Michigan's Mcity testing 
facility, and home to many of our nation's automakers, this 
represents a prime location for folks to test advanced 
automotive technologies and prepare for the future of vehicle 
transportation.
    As I have often said before: auto safety is a matter of 
life and death. Because of this technology's life-saving 
potential, we cannot let the government get this wrong.
    I look forward to a valuable discussion on the positive and 
transformative impact that self-driving cars could have on the 
safety of the driving public.
                              ----------                              


             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Chairman Burgess.
    It's easy to understand why self-driving cars have 
captivated the public, the media, and, of course, Congress. 
With 94 percent of car crashes being caused by drunk or 
distracted driving or other human errors, the future of fully 
automated driving is bursting with possibilities.
    Experts have said that if human error is out of the 
picture, collision rates will fall significantly from the more 
than 38,000 Americans killed in car crashes last year.
    Self-driving cars have the potential to improve lives as 
well as save them. Autonomous vehicles could give seniors and 
people with disabilities independence and mobility, and remove 
barriers to employment and social interaction. They also could 
possibly reduce traffic in our cities and revolutionize public 
transportation.
    Autonomous vehicles have great potential, but they must be 
deployed responsibly.
    Robust cybersecurity is essential. As with all new 
technologies, we must demand ``security by design,'' where 
security is not an afterthought but is built into the product 
from day one. As we saw just a few weeks ago, attacks on our 
digital infrastructure are not hypothetical. And I look forward 
to the hearing tomorrow when we review those attacks in this 
Committee. But unlike that attack and some other cyber 
breaches, attacks on computer-driven and connected cars are a 
threat to human life.
    We also need to see ``privacy by design,'' with consumer 
privacy baked in from the start. Autonomous vehicles function 
by collecting and processing vast amounts of information from 
their surroundings. For example, most collect vehicle location 
data and many operate using cameras and sensors that can 
``see'' inside and outside the vehicle. Such data should be 
property protected and only used for operation of the vehicle 
and not shared.
    Finally, safety must be the highest priority as autonomous 
vehicles have already begun to share our streets. The American 
public must know that these cars are safe before they are 
widely deployed on public streets. The companies manufacturing 
these vehicles cannot just say ``trust us.''
    The challenge is twofold. First, we must ensure safety 
during the decades of transition time when autonomous cars 
share the road with human drivers. The interaction between 
humans and computerized vehicles present unique challenges. 
Second, the autonomous vehicles must be ready to deal with all 
foreseen and unforeseen scenarios before they are permitted to 
operate without a human driver in the driver's seat. These 
scenarios include being prepared for wet, snow-covered pavement 
to confronting a policeman who is using hand signals to 
redirect traffic. Today's hearing will focus on fully 
autonomous cars, but I will note that exciting semi-autonomous 
technologies are already in the marketplace, such as automatic 
braking, which I am optimistic will become standard on all 
makes and models sooner than is currently promised.
    I am hopeful that during today's hearing we will explore 
the great potential of fully autonomous vehicles but also 
appreciate that their benefits could be decades away from being 
realized. Whatever the timeline, I am confident that America's 
greatest minds will be able to meet the technological 
challenges ahead while prioritizing safety, privacy, and 
security. But together we also must address the challenge of 
any job losses that result from automation, including that of 
autonomous cars and trucks.
    I would like to end by paying tribute to Clarence Ditlow, 
Executive Director of the Center for Auto Safety, who passed 
away late last week. Clarence was a tireless vehicle safety 
advocate who was known not just for holding auto manufacturers 
accountable, but also holding NHTSA and Congress accountable. 
He testified numerous times before Congress, and throughout his 
decades of auto safety advocacy, he worked on everything from 
the Pinto explosions and Firestone tires to most recently 
ignition switches and defective airbags. Cars, SUVs, and trucks 
are safer today because of Clarence, and he will be missed by 
the entire driving community.
    I yield back.
                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 [all]
</pre></body></html>
